App. 1
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

BRETT HENDRICKSON,
Plaintiff - Appellant,
v.
AFSCME COUNCIL 18;
MICHELLE LUJAN
GRISHAM, in her ofﬁcial
capacity as Governor of
New Mexico; HECTOR
BALDERAS, in his ofﬁcial
capacity as Attorney
General of New Mexico,

No. 20-2018

Defendants - Appellees.
--------------------------------NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.,
Amicus Curiae.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of New Mexico
(D.C. No. 1:18-CV-01119-RB-LF)
-----------------------------------------------------------------------

(Filed Mar. 26, 2021)

App. 2
Brian K. Kelsey (Reilly Stephens, with him on the
briefs), Liberty Justice Center, Chicago, Illinois, for the
Plaintiff - Appellant.
Eileen B. Goldsmith, Altshuler Berzon LLP, San Francisco, California (Scott A. Kronland, and Stefanie L.
Wilson, Altshuler Berzon LLP, San Francisco, California; Shane C. Youtz, and Stephen Curtice, Youtz & Valdez, P.C., with her on the brief ), Albuquerque, New
Mexico, for the Defendant - Appellee AFSCME Council
18.
Lawrence M. Marcus (Alfred A. Park, with him on the
brief ), Park & Associates, L.L.C., Albuquerque, New
Mexico, for the Defendants - Appellees Michelle Lujan
Grisham and Hector Balderas.
Raymond J. LaJeunesse, Jr., National Right to Work
Legal Defense Foundation, Inc., Springfield, Virginia, filed
an amicus brief in support of Defendants - Appellees.
-----------------------------------------------------------------------

Before MATHESON, LUCERO, and McHUGH, Circuit Judges.
-----------------------------------------------------------------------

MATHESON, Circuit Judge.
-----------------------------------------------------------------------

Brett Hendrickson worked for the New Mexico
Human Services Department (“HSD”) and was a
dues-paying member of the American Federation of
State County and Municipal Employees Council 18

App. 3
(“AFSCME” or “Union”). He resigned his membership
in 2018 after the Supreme Court decided Janus v.
American Federation of State, County, and Municipal
Employees, Council 31, 138 S. Ct. 2448 (2018).
In Janus, the Court said the First Amendment
right against compelled speech protects non-members
of public sector unions from having to pay “agency” or
“fair share” fees—fees that compensate the union for
collective bargaining but not for partisan activity. Mr.
Hendrickson contends that, under Janus, the Union
cannot (1) retain dues that had been deducted from his
paycheck, or (2) serve as his exclusive bargaining representative. The district court dismissed these claims.
Exercising jurisdiction under 28 U.S.C. § 1291, we
afﬁrm these dismissals but remand for amendment of
the judgment.
I.
A.

BACKGROUND

Factual Background1

Mr. Hendrickson signed membership agreements
that permitted union dues to be deducted from his
1

The facts come largely from the Union’s statement of undisputed facts in support of its motion for summary judgment.
The district court noted that “Mr. Hendrickson fail[ed] to respond
to or speciﬁcally dispute the material facts” provided by the Union, despite local rules setting such a requirement. See App. at 51.
But as “Mr. Hendrickson’s material facts [in his motion for summary judgment] [we]re largely consistent with the Union’s,” the
district court “accept[ed] as true the facts as presented in the Union’s” motion for summary judgment. See id. at 51-52.

App. 4
paycheck. After Janus, he terminated his membership.
His dues deductions stopped shortly thereafter.
1. Union Membership and Dues-Deduction Authorizations
This timeline lists Mr. Hendrickson’s actions regarding union membership and dues-deduction authorizations:
•

2001 - Began working for the HSD. HSD employees are part of the bargaining unit represented by the Union.

•

2004 - Signed an agreement to join the Union
and authorized the deduction of union dues
from his paycheck.

•

2006 - Took a position outside the bargaining
unit. As a result, his union membership and
dues payments ended.

•

2007 - Returned to the bargaining unit. He
signed another membership agreement and
dues-deduction authorization.

•

2017 - Signed a membership agreement and
dues-deduction authorization for the third
time.

2. Dues-Deduction Authorization—2017
The 2017 member agreement stated:
Effective 4/7/17, I authorize AFSCME Council
18 as my exclusive bargaining representative,
and I accept membership in AFSCME Council

App. 5
18. I request and authorize the State of New
Mexico to deduct union dues from my pay and
transmit them to AFSCME Council 18. The
amount of dues deduction shall be the amount
approved by AFSCME’s membership as set
forth in the AFSCME constitution and certiﬁed in writing to my employer.
Suppl. App. at 18-19, 50.2
The agreement also created an “opt-out window.”
It limited the time period during which Mr. Hendrickson could terminate his dues deductions:
This authorization shall be revocable only
during the ﬁrst two weeks of every December,
or such other time as provided in the applicable collective-bargaining agreement.
Id. at 19, 50.
3. Membership and Dues-Deduction Termination—2018
On June 27, 2018, the Supreme Court decided Janus. On August 9, Mr. Hendrickson emailed the State
Personnel Ofﬁce (“SPO”), asking, “Are we able to withdraw as full members now or do we have to wait for a
certain amount of time?” Id. at 110; see also id. at 20.3
2

The 2004 and 2007 agreements contained materially similar terms.
3
Mr. Hendrickson began his message by stating: “I seemed
to have lost your response regarding full union members.” Suppl.
App. at 110. The record does not contain any such earlier correspondence.

App. 6
The SPO responded that “to cease payroll deductions
for Membership dues, you must refer to the [collective
bargaining agreement] regarding the request to cease
payroll deductions.” Id. at 110; see also id. at 20.4
On November 30, Mr. Hendrickson ﬁled this suit.
On December 6, the Union wrote to Mr. Hendrickson:
It has come to our attention through the ﬁling
of a lawsuit that you wish to resign your union
membership and cancel your authorization
for the deduction of membership dues. We
have no prior record that you made any such
request to the union. Nevertheless, we have
processed your resignation from membership.
Additionally, your dues authorization provides that it is revocable during the ﬁrst two
weeks of December each year. Accordingly, we
are notifying your employer to stop further
membership dues deductions.
Id. at 20-21, 58.
On December 8, the Union received a faxed letter
from Mr. Hendrickson stating he would like to “opt out
of being a member.” Id. at 61; see also id. at 21.
4. Refund—2019
Despite this correspondence, dues continued to
be deducted from Mr. Hendrickson’s paycheck. On
January 7, 2019, he emailed the SPO to request the
4

The collective bargaining agreement here did not create a
different opt-out window.

App. 7
deductions be stopped, attaching the Union’s December 6 letter. The SPO responded that because it had not
received his request during the opt-out window in the
ﬁrst two weeks of December, it would not stop deductions. Mr. Hendrickson then sent a request to the HSD
to cease dues deductions.
On January 9, the SPO notiﬁed the Union that it
had no record of Mr. Hendrickson’s requesting termination of his dues deductions during the opt-out window. The Union responded, “requesting that [the SPO]
cease dues deductions for Hendrickson immediately.”
Id. at 68; see also id. at 22.
Mr. Hendrickson’s deductions stopped starting
“with the second pay period in January.” See id. at 22.
In February, the Union refunded Mr. Hendrickson the
dues deducted from his paychecks following the closure of the 2018 cancellation window.5
B.

Procedural Background

In addition to suing the Union, Mr. Hendrickson
also named as defendants, in their ofﬁcial capacities,
New Mexico Governor Michelle Lujan Grisham and
New Mexico Attorney General Hector Balderas (the
“New Mexico Defendants”).

5

The refund covered a total of $33.96 in dues deducted from
his paycheck for the second December pay period and the ﬁrst
January pay period.

App. 8
On March 15, 2019, Mr. Hendrickson ﬁled a First
Amended Complaint. He alleged two counts:
•

“By refusing to allow [him] to withdraw from
the Union and continuing to deduct his dues,
Defendants violated his First Amendment
rights to free speech and freedom of association” (Count 1); and

•

“The state law forcing [him] to continue to associate with the Union without his afﬁrmative
consent violates [his] First Amendment rights
to free speech and freedom of association and
42 U.S.C. § 1983” (Count 2).

Suppl. App. at 8, 11 (emphasis omitted).
On Count 1, Mr. Hendrickson sought a declaration
stating that “the Union and [the Governor] cannot
force public employees to wait for an opt-out window
to resign their union membership and to stop the deduction of dues from their paychecks.” Id. at 10.
He also sought a declaration that the New Mexico
statute authorizing deductions and allowing an optout window “constitutes an unconstitutional violation of his First Amendment rights to free speech and
freedom of association.” See id.6 He further sought
6

The statute at issue, then N.M. Stat. § 10-7E-17(C) (2003),
stated in part:
The public employer shall honor payroll deductions [of
membership dues] until the authorization is revoked in
writing by the public employee in accordance with the
negotiated agreement and for so long as the labor organization is certiﬁed as the exclusive representative.

App. 9
“damages in the amount of all dues deducted and remitted to the Union since he became a member [in
2004],” id., or in the alternative, “since the Janus ruling [in 2018],” id. at 11.7
On Count 2, Mr. Hendrickson sought a declaration
that the New Mexico statute providing for exclusive
representation “constitute[s] an unconstitutional violation of his First Amendment rights to free speech and
freedom of association.” See id. at 12.8

N.M. Stat. § 10-7E-17(C) (2003). Since Mr. Hendrickson ﬁled suit,
this provision has been updated and relocated. See N.M. Stat.
§ 10-7E-17(D). The updated version does not change our analysis.
7
Mr. Hendrickson also sought a declaration that the New
Mexico statute permitting fair share fees was unconstitutional.
The district court found this request moot given “that the Union
and SPO are no longer deducting fair share fees from nonunion
employees.” See App. at 55-56. Mr. Hendrickson’s briefs before us
do not contest this ruling.
8
The statute at issue is N.M. Stat. § 10-7E-15(A). It states,
in relevant part:
A labor organization that has been certiﬁed by the
board or local board as representing the public employees in the appropriate bargaining unit shall be the exclusive representative of all public employees in the
appropriate bargaining unit. The exclusive representative shall act for all public employees in the appropriate
bargaining unit and negotiate a collective bargaining
agreement covering all public employees in the appropriate bargaining unit. The exclusive representative
shall represent the interests of all public employees in
the appropriate bargaining unit without discrimination or regard to membership in the labor organization.
N.M. Stat. § 10-7E-15(A).

App. 10
The Union and Mr. Hendrickson each ﬁled motions for summary judgment. The New Mexico Defendants ﬁled a motion to dismiss.
The district court granted the Union’s motion for
summary judgment and the New Mexico Defendants’
motion to dismiss. It denied Mr. Hendrickson’s motion
for summary judgment. The court dismissed the suit in
its entirety. Mr. Hendrickson appeals.
II.

DISCUSSION

We afﬁrm the district court’s dismissal of Count 1
because Mr. Hendrickson’s request for prospective relief is moot, and his request for retrospective damages
relief fails on the merits. We afﬁrm the district court’s
dismissal of Count 2 because the Eleventh Amendment bars his claim against the New Mexico Defendants, and the claim against the Union fails on the
merits.
“We review de novo the district court’s Rule
12(b)(6) dismissal.” Bixler v. Foster, 596 F.3d 751, 756
(10th Cir. 2010). “To survive a motion to dismiss, a complaint must contain sufﬁcient factual matter, accepted
as true, to state a claim to relief that is plausible on its
face.” Doe v. City of Albuquerque, 667 F.3d 1111, 1118
(10th Cir. 2012) (quoting Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009)).
“We review a district court’s grant of summary
judgment de novo, applying the same standard as the
district court.” Helm v. Kansas, 656 F.3d 1277, 1284

App. 11
(10th Cir. 2011). “The court shall grant summary judgment if the movant shows that there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
“In conducting the analysis, we view all facts and evidence in the light most favorable to the party opposing
summary judgment.” Morris v. City of Colo. Springs,
666 F.3d 654, 660 (10th Cir. 2012) (alterations and quotation omitted).
A.

Count 1 – Union Dues

Mr. Hendrickson objects to the deduction of union
dues from his paycheck. We address below his requests
for prospective and retrospective relief.
1. Prospective Relief
Mr. Hendrickson’s request for prospective relief
declaring that the opt-out window in the membership
agreement violates the First Amendment is moot.
a. Mootness
“We have no subject-matter jurisdiction if a case is
moot.” Rio Grande Silvery Minnow v. Bureau of Reclamation, 601 F.3d 1096, 1109 (10th Cir. 2010). Mootness
is “standing set in a time frame: The requisite personal
interest that must exist at the commencement of the
litigation (standing) must continue throughout its existence (mootness).” Brown v. Buhman, 822 F.3d 1151,
1164 (10th Cir. 2016) (quotation omitted).

App. 12
An action becomes moot “[i]f an intervening circumstance deprives the plaintiff of a personal stake . . .
at any point.” Id. at 1165 (quotation omitted). An action
is not moot if a plaintiff has “a concrete interest, however small, in the outcome.” Knox v. Serv. Emps. Int’l
Union, Local 1000, 567 U.S. 298, 307-08 (2012) (quotation omitted). “The crucial question is whether granting a present determination of the issues offered will
have some effect in the real world.” Brown, 822 F.3d at
1165-66 (quotation omitted).
A court must decide mootness as to “each form of
relief sought.” See Collins v. Daniels, 916 F.3d 1302,
1314 (10th Cir. 2019) (quotation omitted). A request for
declaratory relief is moot when it fails to “seek[ ] more
than a retrospective opinion that [the plaintiff ] was
wrongly harmed by the defendant,” Jordan v. Sosa, 654
F.3d 1012, 1025 (10th Cir. 2011), and thus does not
“settl[e] . . . some dispute which affects the behavior of
the defendant toward the plaintiff,” Rio Grande Silvery
Minnow, 601 F.3d at 1110 (quotation omitted).
b. Analysis
When Mr. Hendrickson ﬁled his initial complaint,
he was a union member and dues were being deducted
from his paycheck. Shortly thereafter, he resigned from
the Union, and dues deductions stopped.9 Thus, he no
9

Mr. Hendrickson was a union member when he ﬁled his initial complaint in November 2018, but not when he ﬁled his
amended complaint in March 2019. Because we look to the date
of the plaintiff ’s original complaint when determining standing,
see S. Utah Wilderness All. v. Palma, 707 F.3d 1143, 1152-53

App. 13
longer has a personal stake in receiving a declaration
addressing the constitutionality of the Union’s opt-out
window as applied to him. See Brown, 822 F.3d at 1165.
A declaration regarding the opt-out window would
not affect the defendants’ behavior toward Mr. Hendrickson. See id. at 1165-66; Rio Grande Silvery Minnow, 601 F.3d at 1110. It would serve only to announce
that the defendants had harmed him, see Jordan, 654
F.3d at 1025, but would have no real-world effect. We
thus hold that Mr. Hendrickson’s request for prospective relief on Count 1 is moot.10

(10th Cir. 2013), we consider Mr. Hendrickson’s prospective relief
request in his non-member capacity as an issue of mootness rather than standing.
10
No exception to mootness, including those considered by
the district court—conduct capable of repetition yet evading review, FCC v. Wis. Right to Lift, Inc., 551 U.S. 449, 462 (2007);
voluntary cessation, Already, LLC v. Nike, Inc., 568 U.S. 85, 91
(2013); O’Connor v. Washburn Univ., 416 F.3d 1216, 1222 (10th
Cir. 2005); and transitory claims, Cnty. of Riverside v. McLaughlin, 500 U.S. 44, 51-52 (1991); Clark v. State Farm Mut. Auto. Ins.
Co., 590 F.3d 1134, 1138 (10th Cir. 2009)—applies here. Insofar
as Mr. Hendrickson generally suggests that a declaration would
not be moot because “[t]here are countless similarly situated existing employees” a declaration would beneﬁt, see Aplt. Reply Br.
at 13, “our cases prevent us from applying the mootness exception based on a risk to others,” Marks v. Colo. Dep’t of Corr.,
976 F.3d 1087, 1095 (10th Cir. 2020). Because we resolve this issue on mootness grounds, we need not address whether Eleventh
Amendment immunity bars this claim against the New Mexico
Defendants. See Sinochem Int’l Co. v. Malay. Int’l Shipping Corp.,
549 U.S. 422, 431 (2007) ([A] federal court has leeway to choose
among threshold grounds for denying audience to a case on the
merits.” (quotation omitted)).

App. 14
2. Retrospective Relief
Mr. Hendrickson’s request for retrospective damages relief for his back dues fails on the merits under
basic contract principles. This part of Count 1 was
brought against the Union only.
a. New Mexico law and basic contract principles11
“It is well settled that the relationship existing between a trade union and its members is contractual
and that the constitution . . . and regulations, if any,
constitute a binding contract between the union and
its members . . . , which the courts will enforce, if the
contract is free from illegality or invalidity.” Adams v.
Int’l Brotherhood of Boilermakers, Iron Ship Builders,
Blacksmiths, Forgers & Helpers, 262 F.2d 835, 838
(10th Cir. 1958). Under New Mexico contract law, “to be
legally enforceable, a contract must be factually supported by an offer, an acceptance, consideration, and
mutual assent.” Garcia v. Middle Rio Grande Conservancy Dist., 918 P.2d 7, 10 (N.M. 1996) (quotation omitted).
“A contract which contravenes a rule of law is unenforceable.” State v. Bankert, 875 P.2d 370, 376 (N.M.
1994). But “the rights of the parties must necessarily
be determined by the law as it was when the contract
was made.” Town of Koshkonong v. Burton, 104 U.S.
11

The parties apply New Mexico law to the membership
agreements.

App. 15
668, 679 (1881) (emphasis added); see also Memphis &
L. R. R. Co. v. Berry, 112 U.S. 609, 623 (1884) (“It is, of
course, the law in force at the time the transaction is
consummated and made effectual, that must be looked
to as determining its validity and effect.”). This is so
because “a contract incorporates the relevant law in
force at the time of its creation.” Townsend v. State
ex rel. State Highway Dep’t, 871 P.2d 958, 960 (N.M.
1994); see Crow v. Capitol Bankers Life Ins. Co., 891
P.2d 1206, 1211 (N.M. 1995) (“Under traditional contract theory, state laws are incorporated into and form
a part of every contract whether or not they are specifically mentioned in the instrument.”).12
Thus, “a subsequent change in the law cannot retrospectively alter the parties’ agreement.” Fla. E.
Coast Ry. Co. v. CSX Transp., Inc., 42 F.3d 1125, 1130
12

See also Norfolk & W. Ry. Co. v. Am. Train Dispatchers’
Ass’n, 499 U.S. 117, 130 (1991) (“Laws which subsist at the time
and place of the making of a contract . . . form a part of it, as fully
as if they had been expressly referred to or incorporated in its
terms.” (quotation omitted)); Von Hoffman v. City of Quincy, 71
U.S. (4 Wall.) 535, 550 (1866) (“It is also settled that the laws
which subsist at the time and place of the making of a contract,
and where it is to be performed, enter into and form a part of
it, as if they were expressly referred to or incorporated in its
terms.”); Dillard & Sons Constr., Inc. v. Burnup & Sims Comtec,
Inc., 51 F.3d 910, 915 (10th Cir. 1995) (collecting cases for the
proposition that “Mt is well settled that the existing applicable
law is a part of every contract, the same as if expressly referred
to or incorporated in its terms” (quotation omitted)); 5 Corbin on
Contracts § 24.26 (2020) (“Words and other symbols must always
be interpreted in the light of the surrounding circumstances, and
the existing statutes and rules of law are always among these circumstances.”).

App. 16
(7th Cir. 1994); see also id. (“Whereas the law in effect
at the time of execution sheds light on the parties[’]
intent, subsequent changes in the law that are not anticipated in the contract generally have no bearing on
the terms of their agreement”); 5 Corbin on Contracts
§ 24.26 (2020) (“[S]tatutes enacted subsequent to the
making of a contract are not incorporated in the contract[,] and . . . when a statute is amended subsequent
to formation of the contract, the amended version is
not incorporated.”).
As a result, “[c]hanges in decisional law, even constitutional law, do not relieve parties from their preexisting contractual obligations.” Fischer v. Governor of
N.J., ___ F. App’x ___, 2021 WL 141609, at *7 (3d Cir.
2021) (unpublished); see also Jones v. Ferguson Pontiac
Buick GMC, Inc., 374 F. App’x 787, 788 (10th Cir. 2010)
(unpublished) (holding that a “change in the law was
not grounds for relief ” from a settlement agreement
(citing Collins v. City of Wichita, 254 F.2d 837, 839
(10th Cir. 1958))).13 These basic principles doom Mr.
Hendrickson’s claim.14

13

Although not precedential, we ﬁnd the reasoning of the unpublished decisions cited in this opinion to be instructive. See
10th Cir. R. 32.1 (“Unpublished decisions are not precedential,
but may be cited for their persuasive value.”); see also Fed. R. App.
P. 32.1.
14
A “change of law” may “excuse . . . nonperformance of a
contractual obligation” when, “[a]fter a contract is made, . . . a
party’s performance is made impracticable by” such a change
of law, “the nonoccurrence of which was a basic assumption
upon which the contract was made.” Cent. Kan. Credit Union
v. Mut. Guar. Corp., 102 F.3d 1097, 1102 (10th Cir. 1996) (citing

App. 17
b. Analysis
Mr. Hendrickson requested recovery of all dues
paid since 2004, or at least since Janus was decided in
June 2018. His arguments that Janus retroactively
voids his membership agreements have no merit because he entered valid contracts when he joined the
Union.15
i.

Valid contracts

Mr. Hendrickson entered valid contracts with the
Union in 2004, 2007, and 2017. They contained clear
language and were the product of an offer, an acceptance, consideration, and mutual assent. See Garcia, 918 P.2d at 10.16
Restatement (Second) of Contracts §§ 261, 264 (Am. L. Inst.
1981)). But the doctrine of impracticability of performance is “inapposite” when the party seeking to invoke the doctrine is “under
no . . . obligation to perform any act in the future.” See id. at 1103.
Thus, impracticability provides no relief when, for instance, a
party “seeks . . . to reclaim funds it has already paid and from
which it has derived a beneﬁt,” see id., as Mr. Hendrickson does
here.
15
Mr. Hendrickson argues that Janus renders his membership agreements “voidable,” “void[ ],” and “unenforceable.” See
Aplt. Br. at 12, 13, 17. In contract law, these terms have different
meanings. See 1 Corbin on Contracts §§ 1.6, 1.7, 1.8 (2020). Mr.
Hendrickson does not explain which term should apply here. Our
decision is the same under any of these terms.
16
Indeed, by entering these agreements, not only did Mr.
Hendrickson “obtain rights and beneﬁts that are not enjoyed by
nonmembers, such as the right to vote on ratiﬁcation of a [collective bargaining agreement],” Suppl. App. at 19, but he also
availed himself of these beneﬁts, see id. at 35-36, 46, 116.

App. 18
Mr. Hendrickson does not allege the membership
agreements contravened the law in effect when the
contracts were created. See Bankert, 875 P.2d at 376.
When he signed his agreements, Abood v. Detroit
Board of Education, 431 U.S. 209 (1977), was the governing law. And in Abood, the Supreme Court upheld a
requirement for public-sector non-union members to
pay agency fees for non-partisan union activity. See id.
at 211, 215, 232, 235-36. Mr. Hendrickson does not allege that his contracts with the Union violated Abood
or any other law in force when he signed them.
In June 2018, Janus overruled Abood. The Supreme Court held that requiring non-members to pay
agency fees to public-sector unions violated the First
Amendment. See 138 S. Ct. at 2459-60. Doing so “violates the free speech rights of nonmembers by compelling them to subsidize private speech on matters of
substantial public concern.” 138 S. Ct. at 2460.
Janus thus changed the choices a public employee
faces in deciding whether to join a union. Under Abood,
the decision was between (1) joining a union and paying union dues or (2) not joining a union and paying agency fees. Under Janus, the decision is between
(1) joining a union and paying union dues or (2) not
joining a union and paying nothing. Had Janus been in
force when Mr. Hendrickson signed his union contracts,
he therefore would have faced a different calculus.
But Janus does not support his request for back
dues. A change in law that alters the original considerations for entering an agreement does not allow

App. 19
retroactive invalidation of that agreement. See Town of
Koshkonong, 104 U.S. at 679; Townsend, 871 P.2d at
960; Fla. E. Coast Ry. Co., 42 F.3d at 1130; Jones, 374
F. App’x at 788. Indeed, in Fischer, the Third Circuit
considered this exact question—whether Janus “abrogat[ed] the commitments set forth in the [plaintiffs’
union] agreements.” See Fischer, 2021 WL 141609, at
*7. The court noted that the “[p]laintiffs chose to enter
into membership agreements with [the union] . . . in
exchange for valuable consideration.” Id. at *8. And
“[b]y signing the agreements, [p]laintiffs assumed the
risk that subsequent changes in the law could alter the
cost-beneﬁt balance of their bargain.” Id. Janus thus
did not permit the plaintiffs to renege on their contractual obligations. See id. We agree with this reasoning.
Mr. Hendrickson thrice signed agreements to become a union member and to have dues deducted from
his paycheck. Each agreement was a valid, enforceable
contract. A change in the law does not retroactively
render the agreements void or voidable. Janus thus
provides no basis for Mr. Hendrickson to recover the
dues he previously paid.17
In reaching this conclusion, “[w]e join the swelling
chorus of courts recognizing that Janus does not extend a First Amendment right to avoid paying union
dues.” Belgau v. Inslee, 975 F.3d 940, 951 (9th Cir.
17

Because we ﬁnd that Mr. Hendrickson’s underlying claim
for back dues against the Union fails, we do not additionally consider whether the Union meets the “state actor” element for this
§ 1983 claim. See Lugar v. Edmondson Oil Co., 457 U.S. 922, 937
(1982).

App. 20
2020), petition for cert. ﬁled, No. 20-1120 (U.S. Feb. 11,
2021); see id. at 951 n.5 (collecting cases); see also Oliver v. Serv. Emps. Intl Union Local 668, 830 F. App’x
76, 80 (3d Cir. 2020) (unpublished) (“By choosing to become a Union member, [the plaintiff ] afﬁrmatively
consented to paying union dues,” and thus “was not entitled to a refund based on Janus.”); Bennett v. Council
31 of the AFSCME, AFL-CIO, No. 20-1621, ___ F.3d ___,
2021 WL 939194, at *4-6 (7th Cir. 2021).
ii. Mr. Hendrickson’s arguments
Mr. Hendrickson’s arguments are all variations on
his contention that he can apply Janus retroactively to
void his membership agreements. Each argument fails
because Janus does not change that he entered valid
contracts.
1)

Affirmative consent

Mr. Hendrickson argues his agreements should
now be invalid under Janus because he did not provide “affirmative consent . . . to deduct union dues.”
See Aplt. Br. at 10 (emphasis omitted). But he did
provide afﬁrmative consent by agreeing to the duesauthorization provision. And Janus concerned the consent of non-members, not union members like Mr.
Hendrickson. His argument thus lacks a factual or
legal basis.

App. 21
The Janus Court concluded its opinion with the
following direction regarding afﬁrmative consent:
Neither an agency fee nor any other payment
to the union may be deducted from a nonmember’s wages, nor may any other attempt be
made to collect such a payment, unless the
employee afﬁrmatively consents to pay. By
agreeing to pay, nonmembers are waiving
their First Amendment rights, and such a
waiver cannot be presumed. Rather, to be effective, the waiver must be freely given and
shown by “clear and compelling” evidence.
Unless employees clearly and affirmatively
consent before any money is taken from them,
this standard cannot be met.
138 S. Ct. at 2486 (citations omitted).
This passage shows that Janus addressed only
whether non-union members could be required to pay
agency fees. See Belgau, 975 F.3d at 952. Applying its
holding to members like Mr. Hendrickson “misconstrues Janus.” See id. Janus “in no way created a new
First Amendment waiver requirement for union members before dues are deducted pursuant to a voluntary
agreement.” Id.18 Mr. Hendrickson, a union member,
had signed agreements with the Union authorizing the
deduction of dues. Unlike non-union members, who
had not signed any agreement to pay agency fees, he
18

Because Janus did not create such a new waiver requirement, Mr. Hendrickson’s argument that “he could not have voluntarily, knowingly, or intelligently waived his right not to join
or pay a union” before the Supreme Court decided Janus has no
merit. See Aplt. Br. at 11.

App. 22
afﬁrmatively consented to pay dues. Janus’s afﬁrmative consent analysis provides no basis for Mr. Hendrickson to recover damages.
2)

Compulsion

Similarly, Mr. Hendrickson contends that in light
of Janus, he was “compelled” to join the Union because
he faced a “false dichotomy” of paying union dues or
agency fees. See Suppl. App. at 9. This repackaged version of his “afﬁrmative consent” argument fares no better. Mr. Hendrickson was not compelled. He was free to
join the Union or not. See N.M. Stat. §§10-7E-19(B); 107E-20(B). “[R]egret[ting] [a] prior decision to join the
Union . . . does not render [a] knowing and voluntary
choice to join nonconsensual.” Oliver, 830 F. App’x at
79. And his having “had the option of paying less as
agency fees pre-Janus, or that Janus made that lesser
amount zero by invalidating agency fees, does not establish coercion.” Belgau, 975 F.3d at 950.
3)

Mutual mistake

Mr. Hendrickson relatedly argues his membership
agreements should be void because they were based on
“mutual mistake.” See Aplt. Br. at 12. He asserts that
he “discovered the mistake that agency fees were constitutional when the Supreme Court ruled otherwise
in Janus,” id. at 13, and that his agreement should be
voided as a result of this mutual mistake. This argument again relies on a retroactive application of Janus.
But Janus does not support mutual mistake.

App. 23
Under New Mexico law, a party can challenge a
contract “on the basis of mistake” when “there is a mutual mistake; that is, where there has been a meeting
of minds, an agreement actually entered into, but the
contract . . . , in its written form, does not express what
was really intended by the parties thereto.” See Morris
v. Merch., 423 P.2d 606, 608 (N.M. 1967) (quotation
omitted). A party can also contest a contract when
“there has been a mistake of one party, accompanied
by fraud or other inequitable conduct of the remaining
parties.” See id. (quotation omitted). But “Mt is not a
proper function of the courts to relieve either party to
a contract from its binding effect where it has been entered into without fraud or imposition and is not due
to a mistake against which equity will afford relief.” In
re Tocci, 112 P.2d 515, 521 (N.M. 1941).
Mutual mistake thus does not apply when “subsequent events” show an agreement “to have been unwise or unfortunate.” See id.; see also State ex rel. State
Highway & Transp. Dep ‘t v. Garley, 806 P.2d 32, 36
(N.M. 1991) (“[T]he erroneous belief must relate to the
facts as they exist at the time of the making of the
contract.” (quoting Restatement (Second) of Contracts
§ 151 (Am. L. Inst. 1979))); Restatement (Second) of
Contracts § 151 (Am. L. Inst. 1981, Oct. 2020 update)
(“The word ‘mistake’ is not used [in the Restatement],
as it is sometimes used in common speech, to refer to
an improvident act. . . .”).
Mr. Hendrickson does not suggest the membership agreements failed to express his intent when he
signed. See Morris, 423 P.2d at 608. Nor does he

App. 24
suggest that the Union deceived him as to the Supreme
Court’s holding in Abood. See In re Tocci, 112 P.2d at
521. Rather, he argues that if had he known when he
entered the contract that the Supreme Court was going to overrule Abood in Janus, his intent would have
been different. But what he describes is buyer’s remorse, not mutual mistake. See id. The doctrine of mutual mistake does not apply here.
4)

Plea bargaining case law

In discussing mutual mistake, Mr. Hendrickson
argues that Janus supports voiding his contract under
plea bargaining case law. His reliance on United States
v. Bunner, 134 F.3d 1000 (10th Cir. 1998), is misplaced.
Bunner addressed whether the obligations under
a plea agreement should be dischargeable following a
Supreme Court decision holding that the conduct underlying the defendant’s offense was no longer a crime.
See 134 F.3d at 1002-05. The opinion explained that
“[s]ubsequent to entering the agreement, an intervening change in the law destroyed the factual basis supporting Defendant’s conviction.” Id. at 1005. This court
applied the “doctrine of frustration of purpose,” which
allows a party to a contract to be “discharged from performing” when a “supervening event does not render
performance impossible” but makes “one party’s performance . . . virtually worthless to the other.” Id. at
1004. We held that “the plea agreement no longer
bound the parties.” Id. at 1005.

App. 25
Bunner does not help Mr. Hendrickson. There, after the change in law, the defendant could no longer be
guilty, and thus the plea agreement had no purpose. By
contrast, even after Janus changed the law, Mr. Hendrickson could still be a member of the Union, and his
membership agreement continued to have a purpose.
Again, Janus concerned non-member agency fees and
has nothing to do with Mr. Hendrickson’s agreeing to
pay dues for his union membership.
Brady v. United States, 397 U.S. 742 (1970), is a
more pertinent plea bargaining case. In Brady, the Supreme Court asked whether its recent decision changing the law to eliminate the death penalty from an
offense also “invalidat[ed] . . . every plea of guilty entered [for that offense], at least when the fear of death
is shown to have been a factor in the plea.” Id. at 746.
“Although [the defendant’s] plea of guilty may well
have been motivated in part by a desire to avoid a possible death penalty,” the Court found that the change
in law did not invalidate the defendant’s plea agreement. See id. at 758. “A defendant is not entitled to
withdraw his plea merely because he discovers long
after the plea has been accepted that his calculus
misapprehended . . . the likely penalties attached to
alternative courses of action.” Id. at 757. “[A] voluntary
plea of guilty intelligently made in the light of the then
applicable law does not become vulnerable because
later judicial decisions indicate that the plea rested on
a faulty premise.” Id.
Brady dealt with a change in law that altered a
defendant’s incentives to enter an agreement. If the

App. 26
change had been known at the time of the plea, the
deal may have been less attractive, which is the scenario we have here. Had Mr. Hendrickson known that
Janus would overturn Abood, his decision to join the
Union may have been less appealing because the alternative would not have required him to pay agency fees.
But Brady shows that even when a “later judicial
decision[ ]” changes the “calculus” motivating an agreement, the agreement does not become void or voidable.
See id. Indeed, we have stated that “Supreme Court
precedent is quite explicit that as part of a plea agreement, criminal defendants may waive both rights in
existence and those that result from unanticipated
later judicial determinations.” United States v. Porter,
405 F.3d 1136, 1144 (10th Cir. 2005); see also Bailey v.
Cowley, 914 F.2d 1438, 1441 (10th Cir. 1990) (“One of
the risks a defendant assumes when he pleads guilty
is that the consequences he seeks to avoid will not be
later nulliﬁed by a change in the law.”). The cases on
plea bargaining thus fail to provide a basis for Mr. Hendrickson to recover damages.
5)

Opt-out window

Finally, Mr. Hendrickson suggests that Janus
should retroactively invalidate the membership optout window because limiting his ability to terminate
his dues payments to two weeks a year violates the
First Amendment right of association. We reject this
argument based on Supreme Court precedent.

App. 27
In Cohen v. Cowles Media Co., 501 U.S. 663 (1991),
the Supreme Court held that when “[t]he parties themselves . . . determine[d] the scope of their legal obligations, and any restrictions that” the parties placed on
their constitutional rights were “self-imposed,” then
“requir[ing] those making promises to keep them” does
not offend the First Amendment. See id. at 671. As another court put it, “the First Amendment does not preclude the enforcement of ‘legal obligations’ that are
bargained-for and ‘self-imposed’ under state contract
law.” Fisk v. Inslee, 759 F. App’x 632, 633 (9th Cir. 2019)
(unpublished) (quoting Cohen, 501 U.S. at 668-71).
Janus therefore does not provide a basis for Mr. Hendrickson to challenge the opt-out window to recover
back dues.
*

*

*

*

We hold Mr. Hendrickson’s claim against the Union for retrospective relief on Count 1 fails on the merits because his dues were deducted under valid
contractual agreements. His claim for prospective relief is moot. We therefore afﬁrm the district court’s decision on Count 1.
B.

Count 2—Exclusive Representation

Mr. Hendrickson objects to the Union’s serving as
his exclusive representative. This claim fails against
(1) the New Mexico Defendants because they have
Eleventh Amendment immunity and (2) the Union on
the merits.

App. 28
1. New Mexico Defendants
The New Mexico Defendants are not proper parties under Ex parte Young, 209 U.S. 123 (1908), and
thus have Eleventh Amendment immunity.
a. Eleventh Amendment and Ex parte Young
The Eleventh Amendment constitutionalizes the
doctrine of state sovereign immunity. It provides that
“[t]he Judicial power of the United States shall not be
construed to extend to any suit in law or equity, commenced or prosecuted against one of the United States
by Citizens of another State, or by Citizens or Subjects
of any Foreign State.” U.S. Const. amend. XI. Under
this provision, states enjoy sovereign immunity from
suit. See Va. Off. for Prot. & Advocacy v. Stewart, 563
U.S. 247, 253 (2011); P.R. Aqueduct & Sewer Auth. v.
Metcalf & Eddy, Inc., 506 U.S. 139, 144 (1993). This immunity extends to suits brought by citizens against
their own state. See Hans v. Louisiana, 134 U.S. 1, 1011 (1890); Amisub (PSL), Inc. v. State of Colo. Dep’t of
Soc. Servs., 879 F.2d 789, 792 (10th Cir. 1989). It also
extends to “suit[s] against a state ofﬁcial in his or her
ofﬁcial capacity” because such suits are “no different
from a suit against the State itself.” Will v. Mich. Dep’t
of State Police, 491 U.S. 58, 71 (1989).
Eleventh Amendment immunity “is not absolute.”
See Port Auth. Trans-Hudson Corp. v. Feeney, 495 U.S.
299, 304 (1990). Under the Ex parte Young exception, a
plaintiff may sue individual state ofﬁcers acting in
their ofﬁcial capacities if the complaint alleges an

App. 29
ongoing violation of federal law and the plaintiff seeks
only prospective relief. See Ex parte Young, 209 U.S.
159-60; Verizon Md. Inc. v. Pub. Serv. Comm’n of Md.,
535 U.S. 635, 645 (2002).
To satisfy this exception, the named state ofﬁcial
“must have some connection with the enforcement” of
the challenged statute. Ex parte Young, 209 U.S. at 157.
Otherwise, the suit is “merely making [the ofﬁcial] a
party as a representative of the state” and therefore
impermissibly “attempting to make the state a party.”
Id.
“The fact that the state ofﬁcer, by virtue of his ofﬁce, has some connection with the enforcement of the
act, is the important and material fact.” Id. Ex parte
Young does not require that the state ofﬁcial “have a
‘special connection’ to the unconstitutional act or conduct.” Prairie Band Potawatomi Nation v. Wagnon, 476
F.3d 818, 828 (10th Cir. 2007). But it does require that
the state ofﬁcial “have a particular duty to ‘enforce’ the
statute in question and a demonstrated willingness to
exercise that duty.” Id. (quoting Ex parte Young, 209
U.S. at 157); see also 13 Charles Alan Wright & Arthur
R. Miller, Federal Practice and Procedure § 3524.3 (3d
ed., Oct. 2020 update) (“[T]he duty must be more than
a mere general duty to enforce the law.”).
b. Analysis
Mr. Hendrickson sued the Governor and Attorney General of New Mexico in their official capacities. But these officeholders do not enforce the

App. 30
exclusive representation statute. Rather, members
of the Public Employee Labor Relations Board
(“PELRB”) do. The Governor and Attorney General
therefore do not fall within the Ex parte Young exception and thus have Eleventh Amendment immunity to this suit.
i.

PEBA and PELRB

The Public Employee Bargaining Act (“PEBA”)
provides for a union to serve as the exclusive representative for the employees in a bargaining unit. See
N.M. Stat. § 10-7E-14. The PELRB “has the power to
enforce provisions of the [PEBA].” See id. § 10-7E9(F).19 For example, the PELRB “shall promulgate
rules . . . for . . . the selection, certiﬁcation and decertiﬁcation of exclusive representatives.” Id. § 10-7E-9(A),
(A)(2).
The PELRB “consists of three members appointed by the governor.” See N.M. Stat. § 10-7E-8(A).
“The governor shall appoint one member recommended by organized labor representatives actively
involved in representing public employees, one member recommended by public employers actively involved in collective bargaining and one member jointly
recommended by the other two appointees.” Id.
The New Mexico Supreme Court has held the
governor cannot remove these PELRB members at
19

If necessary, the PELRB may request that a court enforce
its orders. See N.M. Stat. § 10-7E-23(A).

App. 31
will. See AFSCME v. Martinez, 257 P.3d 952, 953 (N.M.
2011). The court observed that “[b]ecause the PELRB
is empowered to make decisions that may adversely affect the executive branch, the PELRB must remain
free from the executive’s control . . . or coercive inﬂuence.” Id. at 956.
ii. Application of Ex parte Young
The PEBA empowers the PELRB—not the Governor or the Attorney General—to enforce New Mexico’s
exclusive representation law. See N.M. Stat. § 10-7E-9.
Moreover, the New Mexico Supreme Court has insulated the PELRB from other executive branch ofﬁcials.
See Martinez, 257 P.3d at 956. Thus, PELRB members
enforce the statute for the purposes of Ex parte Young.
The Governor and Attorney General do not, and they
therefore have Eleventh Amendment immunity to Mr.
Hendrickson’s exclusive representation claim.
Our decision in Chamber of Commerce of the
United States of America v. Edmondson, 594 F.3d 742
(10th Cir. 2010), supports this conclusion. There, we
considered whether the attorney general of Oklahoma
had Eleventh Amendment immunity to a suit challenging a statute “regulat[ing] illegal immigration and
veriﬁcation of employment eligibility.” See id. at 750,
759-60. We concluded that he did not insofar as “[a]n
injunction would prevent him from ﬁling lawsuits or
defending against suits on the basis of ” violations of
one part of the statute. See id. at 758, 760. But the
plaintiffs had “not shown us that the Attorney General

App. 32
ha[d] a particular duty to enforce” another part of the
statute. Id. at 760. Their claims based on this latter
part, therefore, “f[ell] outside the scope of the Ex parte
Young exception,” and “[t]he Attorney General [wa]s
thus entitled to immunity as to that challenge.” Id.; see
also Day v. Sebelius, 376 F. Supp. 2d 1022, 1025, 1031
(D. Kan. 2005) (ﬁnding that the Kansas governor’s
“general enforcement power . . . [wa]s not sufﬁcient to
establish the connection to [a challenged] statute required to meet the Ex parte Young exception to Eleventh Amendment immunity”), aff ’d sub nom. Day v.
Bond, 500 F.3d 1127 (10th Cir. 2007).
Similarly, in Cressman v. Thompson, 719 F.3d 1139
(10th Cir. 2013), we considered whether a motor vehicle clerk, who allegedly had responsibility for interpreting the policies of the Oklahoma Department of
Public Safety, had immunity to a suit that challenged
a statute regulating license-plate images. See id. at
1143, 1146. Because the clerk did not “have a particular duty to enforce the challenged statute,” she was not
a “proper state ofﬁcial[ ] for suit under Ex parte Young.”
See id. at 1146 & n.8.
Here, as in Edmondson and Cressman, neither the
Governor nor the Attorney General has a particular
duty to enforce the challenged statute. Rather, their
connection to the exclusive representation statute
stems from their general enforcement power. But this
does not sufﬁce for Ex parte Young. They therefore are
not proper parties, and they have Eleventh Amendment immunity.

App. 33
Bishop v. Oklahoma, 333 F. App’x 361 (10th Cir.
2009) (unpublished), which the parties discuss at
length, also supports immunity. There, we considered
whether “the Governor and Attorney General of the
State of Oklahoma . . . [we]re sufﬁciently connected to
the enforcement of the Oklahoma Constitution’s marriage provisions” to permit suit. Id. at 362.20 We concluded that the “ofﬁcials’ generalized duty to enforce
state law, alone, [wa]s insufﬁcient to subject them to a
suit challenging a constitutional amendment they
have no speciﬁc duty to enforce.” Id. at 365. Because
the judiciary was responsible for administration of
marriage licenses, the “claims [we]re simply not connected to the duties of the Attorney General or the
Governor.” See id. Likewise, here, the PELRB bears responsibility for the provision at issue, and Mr. Hendrickson’s claims thus are not connected to the New
Mexico Defendants.
Mr. Hendrickson relies on Kitchen v. Herbert, 755
F.3d 1193 (10th Cir. 2014), and Petrella v. Brownback,
20

We ultimately resolved Bishop as a matter of standing rather than Eleventh Amendment immunity because “the unique
procedural stance of th[e] appeal ha[d] deprived th[e] Court of a
full brieﬁng of the [Ex parte Young] issues.” See Bishop, 333 F.
App’x at 363-64. But as we noted in Cressman, “there is a common
thread between Article III standing analysis and Ex parte Young
analysis.” Cressman, 719 F.3d at 1146 n.8; see also Bishop, 333 F.
App’x at 364 n.5 (observing that “[t]he ‘necessary connection’ language in [Ex parte] Young” is the “common denominator” of both
a standing inquiry and “whether our jurisdiction over the defendants is proper under the doctrine of Ex parte Young” (quoting
Planned Parenthood of Idaho, Inc. v. Wasden, 376 F.3d 908, 919
(9th Cir. 2004))).

App. 34
697 F.3d 1285 (10th Cir. 2012),21 but they do not support the contrary conclusion. In Kitchen, we held the
governor and attorney general of Utah were proper
parties to a suit challenging Utah’s laws banning
same-sex marriage because in Utah, unlike in Oklahoma, “marriage licenses are issued not by court clerks
but by county clerks.” See 755 F.3d at 1199-202, 1204.
The defendants’ “actual exercise of supervisory power
and their authority to compel compliance from county
clerks and other ofﬁcials provide[d] the requisite
nexus” between the defendants and the provision at issue. See id. at 1204. Here though, this inquiry fails to
show the requisite nexus between the New Mexico Defendants and the PELRB members.
Similarly, in Petrella we determined the governor
and attorney general of Kansas to be proper parties to
a suit challenging the constitutionality of Kansas’s
school-funding laws. See 697 F.3d at 1289, 1293-94. We
found it cannot “be disputed that the Governor and Attorney General of [a] state . . . have responsibility for
the enforcement of the laws of the state,” they had general law enforcement powers, and there was no indication the statutory provisions at issue fell outside the
scope of these general enforcement powers. See id. at
1289-91, 1294. But here, the statutory scheme vests
enforcement power in the PELRB, a body independent
21

Mr. Hendrickson also points to Safe Streets Alliance v.
Hickenlooper, 859 F.3d 865 (10th Cir. 2017), and Harris v. Quinn,
573 U.S. 616 (2014). Safe Streets did not discuss the Ex parte
Young requirement at issue here. See id. at 896, 901-02, 906 n.19,
912. And Harris did not discuss Ex parte Young at all.

App. 35
of the Governor and the Attorney General. We thus do
not ﬁnd Mr. Hendrickson’s arguments availing.
*

*

*

*

We hold that Mr. Hendrickson’s claim against the
New Mexico Defendants on Count 2 must be dismissed
because they are not proper parties to this suit under
Ex parte Young and thus have Eleventh Amendment
immunity.
2. Union
The Supreme Court’s treatment of exclusive bargaining representation—including in Janus itself—
forecloses Mr. Hendrickson’s exclusive representation
claim against the Union.22
a. Additional legal background
The Supreme Court has discussed exclusive representation at length in Minnesota State Board for Community Colleges v. Knight, 465 U.S. 271 (1984), and in
Janus.

22

Our afﬁrmance of the district court’s dismissal of the New
Mexico Defendants based on Eleventh Amendment immunity
leaves only the Union as a defendant on the exclusive representation claim. As with Count 1, see supra n.17, because we ﬁnd that
Mr. Hendrickson’s underlying claim regarding exclusive representation fails, we do not additionally consider whether the Union
meets the “state actor” element for this § 1983 claim. See Lugar
v. Edmondson Oil Co., 457 U.S. 922, 937 (1982).

App. 36
i.

Knight

In Knight, the Supreme Court considered the constitutionality of exclusive representation. See 465 U.S.
at 273. State law provided for bargaining units to select an exclusive representative based on majority
vote. See id. at 273-74. Several college faculty who were
not members of the union designated as the exclusive
representative objected. See id. at 278. They claimed
that limiting participation in meetings to the exclusive
representative violated their First Amendment rights
of speech and association. See id. at 288.
The Court found that, although exclusive representation might “amplif[y] [the representative’s] voice,”
this did not mean the challengers’ right to speak had
been infringed. See id. at 288-89. Similarly, the Court
found that although individuals may “feel some pressure to join the exclusive representative,” such pressure did not impair their freedom of association. See id.
at 289-90; see also id. at 290 (“[T]he pressure is no different from the pressure to join a majority party that
persons in the minority always feel. Such pressure is
inherent in our system of government; it does not create an unconstitutional inhibition on associational
freedom.”).
Thus, “restriction of participation . . . to the
faculty’s exclusive representative” did not infringe
“speech and associational rights.” See id. at 288. “The
state has in no way restrained [the faculty’s] freedom
to speak on any education-related issue or their freedom to associate or not to associate with whom they

App. 37
please, including the exclusive representative.” Id.
(emphasis added). The Court therefore held that “restriction on participation . . . of professional employees
within the bargaining unit who are not members of the
exclusive representative and who may disagree with
its views” does not “violate[ ] the[ir] constitutional
rights.” Id. at 273.
ii. Janus
Janus explained that the union in that case was
an exclusive representative. See Janus, 138 S. Ct. at
2460. And the Court indicated its ruling on agency fees
would not prevent such exclusive representation: “[I]t
is simply not true that unions will refuse to serve as
the exclusive representative of all employees in the
unit if they are not given agency fees.” Id. at 2467. The
Court acknowledged that “[i]t is . . . not disputed that
the State may require that a union serve as exclusive
bargaining agent for its employees.” Id. at 2478. It
further said, “States can keep their labor-relations
systems exactly as they are—only they cannot force
nonmembers to subsidize public-sector unions.” Id. at
2485 n.27.
b. Analysis
Mr. Hendrickson argues exclusive representation
requires him to “allow the Union to speak on his behalf,” and this “compelled association” violates his
First Amendment rights. See Aplt. Br. at 45. He contends that “as a condition of his employment, [he] must

App. 38
allow the Union to speak” for him regarding “the sort
of policy decisions that Janus recognized are necessarily matters of public concern,” including his salary.
See id. Although Mr. Hendrickson acknowledges that
he “retains the right to speak for himself,” he contends
this “does not resolve the fact that the Union organizes
and negotiates as his representative in his employment relations.” Id. at 46. He concludes that “[l]egally
compelling [him] to associate with the Union demeans
his First Amendment rights.” Id. But Knight and Janus foreclose his claim.
Knight found exclusive representation constitutionally permissible. Exclusive representation does not
violate a nonmember’s “freedom to speak” or “freedom
to associate,” and it also does not violate one’s freedom
“not to associate.” See 465 U.S. at 288. Knight thus belies Mr. Hendrickson’s claim that exclusive representation imposes compulsion in violation of the First
Amendment.
Janus reinforces this reading. As noted, the Janus
Court stated that “[i]t is . . . not disputed that the State
may require that a union serve as exclusive bargaining
agent for its employees.” Janus, 138 S. Ct. at 2478. And
exclusive representatives have a “duty of providing fair
representation for nonmembers.” See id. at 2467-68.
Even though exclusive representatives speak on behalf
of nonmembers, the Court stated that, with the exception of agency fees, “[s]tates can keep their labor-relations systems exactly as they are.” Id. at 2485 n.27.

App. 39
Finally, 101 Circuits that have addressed this issue subsequent to the Janus decision have concluded
that exclusive representation remains constitutional.”
Oliver v. Serv. Emps. Intl Union Local 668, 830 F. App’x
76, 80 n.4 (3d Cir. 2020) (unpublished); see also Reisman v. Associated Facs. of Univ. of Me., 939 F.3d 409,
414 (1st Cir. 2019), cert. denied, 141 S. Ct. 445 (2020);
Jarvis v. Cuomo, 660 F. App’x 72, 74 (2d Cir. 2016) (unpublished); Akers v. Md. State Educ. Ass’n, No. 19-1524,
___ F.3d ___, 2021 WL 852086, at *5 n.3 (4th Cir. 2021);
Thompson v. Marietta Educ. Ass’n, 972 F.3d 809, 81314 (6th Cir. 2020), petition for cert. ﬁled, No. 20-1019
(U.S. Jan. 22, 2021); Ocol v. Chi. Tchrs. Union, 982 F.3d
529, 532-33 (7th Cir. 2020); Bierman v. Dayton, 900
F.3d 570, 574 (8th Cir. 2018); Mentele v. Inslee, 916 F.3d
783, 786-90 (9th Cir. 2019), cert. denied sub nom. Miller
v. Inslee, 140 S. Ct. 114 (2019).
III.

CONCLUSION

We afﬁrm the district court’s decisions to grant the
Union’s motion for summary judgment and the New
Mexico Defendants’ motion to dismiss. We remand to
the district court with instructions to amend its judgment to reﬂect that (1) the dismissal of Mr. Hendrickson’s request for prospective relief on Count 1 as moot
and (2) the dismissal of Count 2 against the New Mexico Defendants based on Eleventh Amendment sovereign immunity, are both “without prejudice.” See N.M.
Health Connections v. U.S. Dep’t of Health & Human
Servs., 946 F.3d 1138, 1167 (10th Cir. 2019); Williams

App. 40
v. Utah Dep’t of Corr., 928 F.3d 1209, 1214 (10th Cir.
2019).23

23

Also pending before us is a motion from the Union to take
judicial notice of (1) portions of the practice manual for the
PELRB, and (2) a decision and order from the PELRB. No party
opposes the motion. We may take judicial notice of these documents. See Fed. R. Evid. 201(b), (b)(2); Renewable Fuels Ass’n v.
EPA, 948 F.3d 1206, 1258 (10th Cir. 2020); New Mexico ex rel.
Richardson v. Bureau of Land Mgmt., 565 F.3d 683, 702 n.22
(10th Cir. 2009). We grant the motion, though we have not relied
on these documents in reaching our decision.

App. 41
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

BRETT HENDRICKSON,
Plaintiff - Appellant,
v.
AFSCME COUNCIL 18;
MICHELLE LUJAN
GRISHAM, in her ofﬁcial
capacity as Governor of
New Mexico; HECTOR
BALDERAS, in his ofﬁcial
capacity as Attorney
General of New Mexico,

No. 20-2018
(D.C. No. 1:18-CV01119-RB-LF)

Defendants - Appellees.
--------------------------------NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.,
Amicus Curiae.
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

(Filed Mar. 26, 2021)
Before MATHESON, Circuit Judge, LUCERO, Senior
Circuit Judge, and McHUGH, Circuit Judge.
-----------------------------------------------------------------------

App. 42
This case originated in the District of New Mexico
and was argued by counsel.
The judgment of that court is afﬁrmed and remanded. The case is remanded to the United States
District Court for the District of New Mexico for further proceedings in accordance with the opinion of this
court.
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT,
Clerk

App. 43
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
BRETT HENDRICKSON,
Plaintiff,
v.

No. CIV 18-1119 RB/LF

AFSCME COUNCIL 18;
MICHELLE LUJAN
GRISHAM, in her ofﬁcial
capacity as Governor of
New Mexico; and HECTOR
BALDERAS, in his ofﬁcial
capacity as Attorney
General of New Mexico,
Defendants.
MEMORANDUM OPINION AND ORDER
(Filed Jan. 22, 2020)
For most of his employment with the New Mexico
Human Services Department (HSD), Plaintiff Brett
Hendrickson was a dues-paying member of Defendant
AFSCME Council 18 (the Union). Recently in Janus v.
AFSCME, 138 S. Ct. 2448 (2018), the United States
Supreme Court overruled long-standing precedent
and found that the common union practice of collecting
agency fees from nonunion members violates their
constitutional rights. After Janus, Mr. Hendrickson
resigned from his Union membership. He now brings
suit against the Union, as well as Governor Lujan
Grisham and Attorney General Balderas (the State

App. 44
Defendants), for violations of his First Amendment
rights to free speech and free association. He seeks
monetary damages for dues that he paid to the Union
and declarations that the Union’s dues authorization
revocation policy and provisions of the related state
statutory scheme are unconstitutional.
Mr. Hendrickson and the Union ﬁled cross motions
for summary judgment, and the State Defendants
moved to dismiss. For the reasons discussed herein,
the Court will grant the Union’s motion for summary
judgment, grant the State Defendants’ motion to dismiss, deny Mr. Hendrickson’s motion for summary
judgment, and dismiss this lawsuit.
II.

Legal Standards
A. Summary Judgment Standard of Review

Summary judgment is appropriate when the
Court determines “that there is no genuine dispute as
to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see also
Garrison v. Gambro, Inc., 428 F.3d 933, 935 (10th Cir.
2005). “Where the record taken as a whole could not
lead a rational trier of fact to ﬁnd for the nonmoving
party, there is no genuine issue for trial.” Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
587 (1986) (quotation marks and citation omitted).
The Court examines the record and makes all reasonable inferences in the light most favorable to the

App. 45
nonmoving party. Gutierrez v. Cobos, 841 F.3d 895, 900
(10th Cir. 2016).
In analyzing cross-motions for summary judgment, a court “must view each motion separately, in the
light most favorable to the non-moving party, and draw
all reasonable inferences in that party’s favor.” United
States v. Supreme Court of N.M., 839 F.3d 888, 906–07
(10th Cir. 2016) (quotation marks and citations omitted). “Cross motions for summary judgment are to be
treated separately; the denial of one does not require
the grant of another.” Christian Heritage Acad. v. Okla.
Secondary Sch. Activities Ass’n, 483 F.3d 1025, 1030
(10th Cir. 2007) (quotation omitted).
The Court notes that Mr. Hendrickson fails to respond to or speciﬁcally dispute the material facts set
forth in the Union’s motion (see Docs. 42; 45 at 7) or in
the Union’s response to his own motion (see Docs. 39 at
8–11; 47) in contravention of Local Rule 56. See D.N.M.
LR-Civ. 56(b). However, Mr. Hendrickson’s material
facts are largely consistent with the Union’s statement
of facts in its own motion. (See Doc. 39 at 8 (citing Doc.
32 at 2–8).) Consequently, for the purposes of both motions for summary judgment, the Court will accept as
true the facts as presented in the Union’s motion (Doc.
32) and response (Doc. 39).
B. Motion to Dismiss Standard of Review
In reviewing a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6), the Court “must accept all the well-pleaded allegations of the complaint

App. 46
as true and must construe them in the light most favorable to the plaintiff.” In re Gold Res. Corp. Sec. Litig.,
776 F.3d 1103, 1108 (10th Cir. 2015) (quotation omitted). “To survive a motion to dismiss,” the complaint
does not need to contain “detailed factual allegations,”
but it “must contain sufﬁcient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on its
face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555, 570
(2007)). “Threadbare recitals of the elements of a cause
of action, supported by mere conclusory statements, do
not sufﬁce.” Id.
II.

Background

Mr. Hendrickson has been employed with the
HSD, a public employer, since 2001. (Docs. 21 (Am.
Compl.) ¶¶ 3, 16.) He is covered by the Public Employee Bargaining Act (PEBA), N.M. Stat. Ann. §§ 107E-1–-26 (1978), which gives public employees the
right to join—or not to join—a labor organization for
the purposes of bargaining with public employers regarding the terms of their employment. N.M. Stat.
Ann. §§ 10-7E-5, 10-7E-15. The Union and the State
are parties to a collective bargaining agreement (CBA),
and Mr. Hendrickson is a member of a bargaining unit
as deﬁned in the CBA. (Doc. 32-4 ¶¶ 3–4.) See also § 107E-13. The Union is the democratically-elected exclusive representative for Mr. Hendrickson’s bargaining
unit for purposes of the PEBA. (See Doc. 32-4 ¶ 3.) See
also § 10-7E-14.

App. 47
While New Mexico has “never required membership in the Union as a condition of public employment”
(Doc. 32 at 111 (citing Doc. 32-4 ¶ 6); see also § 10-7E5), employees in Mr. Hendrickson’s pre-Janus bargaining unit were required to make a choice: pay dues and
join the Union as a member to receive full member beneﬁts, or decline to join and pay a lower amount of “fair
share fees” as a nonmember. (Doc. 32-4 ¶¶ 7, 35, 63;
Am. Compl. ¶¶ 16, 22.) See also 138 S. Ct. at 2459–60.
At the time, these fair share fees were lawful under
Abood v. Detroit Board of Education, 431 U.S. 209
(1977) and the PEBA. “Represented bargaining unit
employees have never been required to become Union
members nor required to publicly endorse the Union’s
positions in any respect.” (Doc. 32-4 ¶ 29.)
Mr. Hendrickson chose to join the Union and authorized monthly dues deductions by signing the Union’s membership agreement. (Doc. 32-4 ¶ 36.) He
signed this agreement on three occasions: originally on
May 7, 2004 (id.; see also Doc. 32-4-2); in 2007 when he
returned to SPD after a short stint with a non-bargaining unit (Am. Compl. ¶¶ 17, 20; Docs. 32-4 ¶ 38; 32-42); and on April 7, 2017 (Docs. 32-4 ¶ 40; 32-4-3). The
membership agreement provides:
Effective: [April 7, 2017], I authorize AFSCME Council 18 as my exclusive bargaining
representative, and I accept membership in
AFSCME Council 18. I request and authorize
the State of New Mexico to deduct union dues
1

The Court cites the CM/ECF pagination of the parties’
briefs, rather than the internal pagination.

App. 48
from my pay and transmit them to AFSCME
Council 18. The amount of dues deduction
shall be the amount approved by AFSCME’s
membership as set forth in the AFSCME constitution and certiﬁed in writing to my employer. This authorization shall be revocable
only during the ﬁrst two weeks of every December, or such other time as provided in the
applicable collective-bargaining agreement.2
(Doc. 32-4-3.) Thus, Mr. Hendrickson was able to resign his “union membership at any time, but . . . he
would continue to have union dues deducted from his
paycheck unless he gave the Union and the State written notice of revocation of his dues deduction authorization during the ﬁrst two weeks of December in each
calendar year.” (Doc. 32-4 ¶ 44.)
On June 27, 2018, the United States Supreme
Court decided Janus. 138 S. Ct. 2448. In Janus, the
Court examined the constitutionality of requiring nonunion state employees to pay agency fees for union
representation, such as the “fair share” fees in New
Mexico. Id. at 2459–60. It found that this practice violates nonmembers’ First Amendment rights, because it
“compel[s] them to subsidize private speech on matters
of substantial public concern.” Id. at 2460. The Court
held, therefore, that “States and public-sector unions
may no longer extract agency fees from nonconsenting employees . . . unless the employee afﬁrmatively
2

The Union’s membership agreements have included language similar to that quoted above since at least 2004. (See Doc.
32-4 ¶ 8.)

App. 49
consents to pay. By agreeing to pay, nonmembers are
waiving their First Amendment rights, and such a
waiver cannot be presumed.” Id. at 2486 (citations
omitted).
On July 2, 2018, the Union sent the State Personnel Office (SPO) a letter and “asked the State to
immediately stop deducting fair share fees from nonmembers and to immediately stop transmitting those
fees to the Union.” (Docs. 32-4 ¶ 65; 32-4-13.) The State
and the Union “have agreed that provisions of the
[CBA] that required the payment of fair share fees
by non-members are now invalid and unenforceable
and . . . those provisions are accordingly no longer in
effect.” (Doc. 32-4 ¶ 71.)
Mr. Hendrickson emailed the SPO about withdrawing his Union membership on August 9, 2018.
(Docs. 33-1 ¶ 5; 33-1-1.) He ﬁled his original complaint
in this Court on November 30, 2018. (Doc. 1.) He had
not contacted the Union regarding resignation or termination of his dues deductions before he ﬁled his original complaint. (See Doc. 32-4 ¶¶ 43, 47.) On December
6, 2018, Ms. Connie Derr, Executive Director of the
Union, wrote a letter to Mr. Hendrickson and stated:
It has come to our attention through the filing of a lawsuit that you wish to resign your
union membership and cancel your authorization for the deduction of membership dues.
We have no prior record that you made any
such request to the union. Nevertheless, we
have processed your resignation from membership. Additionally, your dues authorization

App. 50
provides that it is revocable during the ﬁrst
two weeks of December each year. Accordingly, we are notifying your employer to stop
further membership dues deductions.
(Doc. 32-4-5; see also Doc. 33-1 ¶ 7.) Mr. Hendrickson
faxed a membership withdrawal letter to the Union on
December 8,2018. (Docs. 32-4 ¶ 49; 32-4-6.)
After a series of communications between Mr.
Hendrickson, the SPO, and Ms. Derr, the SPO stopped
deducting dues beginning with Mr. Hendrickson second paycheck in January 2019, and the Union reimbursed him for the dues mistakenly deducted after
the ﬁrst pay period in December 2018. (See Docs. 32-4
¶¶ 50–59; 32-4-10; 32-4-12; Am. Compl. ¶¶ 35–44.)
Mr. Hendrickson is not currently a Union “member and
is not required to support the Union, ﬁnancially or otherwise.” (Doc. 32-4 ¶ 60; see also Am. Compl. ¶¶ 10, 42.)
III. The Court will grant the Union’s motion
for summary judgment and deny Mr. Hendrickson’s motion for summary judgment
with respect to Count I.
In his ﬁrst claim for relief, Mr. Hendrickson contends that Defendants violated his First Amendment
rights to free speech and association when they refused
to immediately allow him to withdraw from the Union
after the Supreme Court decided Janus. (Am. Compl.
¶¶ 45–62.) He seeks damages and three separate declarations. (Id.)

App. 51
A. Mr. Hendrickson’s claim regarding fair
share fees is moot.
Mr. Hendrickson seeks a declaration that N.M.
Stat. Ann. § 10-7E-9(G), the statute that authorized
“fair share fees” before Janus, is unconstitutional. (Id.
¶ 60.) He acknowledges, however, that the Union and
SPO are no longer deducting fair share fees from nonunion employees. (See Docs. 32-4 ¶ 65, 70–71; 32-4-13;
32-4-17.) The Union argues that “a favorable judicial
decision” on this issue would have no “effect in the
real world.” Equal Emp’t Opportunity Comm’n v.
CollegeAmerica Denver, Inc., 869 F.3d 1171,1173 (10th
Cir. 2017) (citation omitted). (Doc. 32 at 15.) Mr. Hendrickson fails to respond to this argument and has thus
waived this claim. (See Doc. 42.) The Court agrees that
this issue is moot and will grant summary judgment to
the Union and deny Mr. Hendrickson’s motion on this
issue.
B. Mr. Hendrickson lacks standing to seek
a declaration regarding the Union’s
opt-out window as it applies to other
union members.
Mr. Hendrickson next seeks a declaration “that
the Union and [Governor] Lujan Grisham cannot force
public employees to wait for an opt-out window to resign their union membership and to stop the deduction
of dues from their paychecks.” (Am. Compl. ¶ 58.) The
Court may not grant the requested relief, however, because Mr. Hendrickson “must assert his own legal
rights and interests, and cannot rest his claim to relief

App. 52
on the legal rights or interests of third parties.” Aid for
Women v. Foulston, 441 F.3d 1101, 1111 (10th Cir.
2006) (quoting Warth v. Seldin, 422 U.S. 490, 499
(1975)) (subsequent citation omitted); see also Begay v.
Pub. Serv. Co. of NM, 710 F. Supp. 2d 1161, 1186–87
(D.N.M. 2010). As this lawsuit is not a class action, Mr.
Hendrickson may not seek a declaration that would affect the rights of others. Thus, the Court will grant the
Union’s motion for summary judgment on this issue
and deny Mr. Hendrickson’s motion.
C. Mr. Hendrickson cannot show that N.M.
Stat. Ann. § 10-7E-17(C) constitutes an
unconstitutional violation of his First
Amendment rights.
Mr. Hendrickson seeks a declaration that N.M.
Stat. Ann. § 10-7E-17(C) violates his First Amendment
rights to free speech and association “because it allowed the withholding of union dues from his paycheck
until a two-week period speciﬁed in the Union agreement.” (Am. Compl. ¶ 59.) This statute provides that
the SPO “shall honor payroll deductions until the authorization is revoked in writing . . . in accordance with
the negotiated agreement. . . .” N.M. Stat. Ann. § 107E-17(C). He also seeks “damages in the amount of all
dues deducted . . . since he became a member” (Am.
Compl. ¶ 61), or alternatively, “in the amount of all
dues deducted . . . since the Janus ruling” (id. ¶ 62).
The claims fail for a variety of reasons.

App. 53
1. Mr. Hendrickson’s claim for prospective relief is moot.
Mr. Hendrickson’s requested declaration regarding the opt-out window for dues revocation is not
justiciable, because he has resigned from Union membership and is no longer subject to dues or the opt-out
window. “[I]t is well established that what makes a declaratory judgment action a proper judicial resolution
of a case or controversy rather than an advisory opinion is the settling of some dispute which affects the behavior of the defendant toward the plaintiff.” Jordan v.
Sosa, 654 F.3d 1012, 1025 (10th Cir. 2011) (quotation
and citations omitted). “Hence, . . . a ‘plaintiff cannot
maintain a declaratory or injunctive action unless he
or she can demonstrate a good chance of being likewise
injured [by the defendant] in the future.’ ” Cox v. Phelps
Dodge Corp., 43 F.3d 1345, 1348 (10th Cir. 1994), superseded by statute on other grounds, Cody Labs. v.
Sebelius, 446 F. App’x 964 (10th Cir. 2011) (quotation
omitted).
Mr. Hendrickson presents several arguments to
show why his lawsuit is not moot. First, he cites Fisk
v. Inslee, a similar case in which the Ninth Circuit
found that the plaintiff union members’ prospective
relief claims were not moot because they were “the sort
of inherently transitory claims for which continued
litigation is permissible.” Fisk v. Inslee, 759 F. App’x
632, 633 (9th Cir. 2019) (citations omitted). “While the
facts here are very similar to Fisk, they differ in one
significant respect: Fisk involved a putative class action, where prospective class members presumably

App. 54
remained subject to the challenged conduct.” See
Stroeder v. Serv. Emp’s Int’l Union, No. 3:19-CV-01181HZ, 2019 WL 6719481, at *3 (D. Or. Dec. 6, 2019). As
Mr. Hendrickson does not bring a class action, Fisk is
inapposite.
Mr. Hendrickson next argues that this lawsuit
presents a case of “voluntary cessation,” because the
Union revoked his dues deduction only after he ﬁled a
lawsuit. (Doc. 33 at 15.) He relies on Knox v. Service
Employees International Union, Local 1000, another
class action in which nonunion employees alleged that
a special dues assessment was being used for political
expenditures, and they sued to obtain a refund. 567
U.S. 298, 302–07 (2012). After the Supreme Court
granted certiorari, the union sent a notice to the employees and promised a full refund then moved to dismiss for mootness. Id. at 307. The Supreme Court
found that the offer did not moot the case, because the
Union had not actually refunded the employees and
had “include[d] a host of conditions, caveats, and confusions” regarding how the employees could request
the refund. Id. at 308. But Knox, which dealt with the
hypothetical refund of special assessment dues, is
distinguishable from this case, which involves terms
related to the expiration of the union membership
agreement.3

3

The Court also ﬁnds Mr. Hendrickson’s argument regarding voluntary cessation disingenuous, as he ﬁled this lawsuit on
November 30, 2018 (Doc. 1), and the two-week opt-out window
began the next day. The Union did not terminate the dues

App. 55
Finally, Mr. Hendrickson argues that the circumstances of this case are “capable of repetition but will
evade review,” much like those in Roe v. Wade, 410 U.S.
113 (1973). (Doc. 33 at 16.) “To meet this exception to
mootness,” however, he must show that “there [is] a
reasonable expectation that the same complaining
party [will] be subject to the same action again.” Casad
v. U.S. Dep’t of Health & Human Servs., 301 F.3d 1247,
1254 (10th Cir. 2002) (quoting Weinstein v. Bradford,
423 U.S. 147, 149 (1975) (per curiam)) (emphasis
added). Here, his opt-out window passed in December
2018. He is no longer a Union member, and the Union
is no longer deducting dues from his paycheck. He has
not alleged that he is likely to be subject to Union
membership or the relevant dues policies again. Mr.
Hendrickson’s claim for prospective relief is moot.
2. Mr. Hendrickson has not shown that
the Union violated his First Amendment rights to free speech and association.
Even if Mr. Hendrickson’s claims regarding the
opt-out window and the dues revocation agreement
were justiciable, they would fail. Mr. Hendrickson essentially argues that Janus applies retroactively to
void his membership contract with the Union. (Doc. 33
at 9–10.) In Janus, the Supreme Court found that a
union may only deduct wages from a nonmember if
authorization only in response to the lawsuit, but in response to
his resignation.

App. 56
that “employee afﬁrmatively consents to pay.” 138
S. Ct. at 2486. The Court disagrees that Janus applies
here because Janus concerned a nonunion employee’s
fair share fees, not a union member’s contracted-for
dues.
The Union relies on the Supreme Court’s decision
in Cohen v. Cowles Media Co., 501 U.S. 663 (1991), to
argue that Mr. Hendrickson cannot use Janus to void
a valid contract on the basis of any purported violation of his First Amendment rights. (See Doc. 32 at
20–22.) In Cohen, an individual (Cohen) contracted
with two newspapers to provide conﬁdential information, but only on the condition that he would remain anonymous. 501 U.S. at 665. The newspapers
accepted and published the information, but they
also revealed Cohen as the source. Id. at 666. Cohen
sued, and the newspapers argued that enforcement of
the parties’ agreement would violate the newspapers’
First Amendment rights. Id. at 667–68. The Supreme
Court found that the newspapers self-imposed the restrictions on their First Amendment rights to reveal
the conﬁdential source, and state law would enforce
that agreement. Id. at 671.
“Cohen amounts to a statement that one can waive
a constitutional right, which [Mr. Hendrickson]
acknowledges is consistent with Janus.” (Doc. 42 at
11.) He argues, however, that Cohen is distinguishable
because “[t]here was no intervening change in the law
that recognized a new right of newspapers between
when the promise was made and when the case
was decided.” (Doc. 42 at 11.) The court in Cooley v.

App. 57
California Statewide Law Enforcement Ass’n considered this same argument and relied on Brady v.
United States, 397 U.S. 742,757 (1970) to find that
“an intervening change in law does not taint [the union member’s] consent or invalidate his contractual
agreement.” 385 F. Supp. 3d 1077, 1080 (E.D. Cal.
2019). The Union also cites Brady, a case in which the
criminal defendant (Brady) entered a guilty plea rather than face a jury trial and, possibly, the death penalty. (Doc. 39 at 21 (citing Brady, 397 U.S. at 743).)
Sometime later, the statute that would have allowed
the death penalty in Brady’s case was found to be unconstitutional. See Brady, 397 U.S. at 745–46. Brady
“sought relief under 28 U.S.C. § 2255, claiming that his
plea of guilty was not voluntarily given because” the
now-unconstitutional statute “operated to coerce his
plea. . . .” Id. at 744. The Supreme Court disagreed and
found that “[t]he voluntariness of Brady’s plea can be
determined only by considering all of the relevant circumstances surrounding it.” Id. at 749 (citations omitted). The same is true here: Mr. Hendrickson was faced
with the then-constitutional choice under Abood to join
the Union or pay fair share fees. His choice was voluntary, and he may not now void his choice after Janus.
Mr. Hendrickson’s argument that the parties’ contract is based on “mutual mistake” is similarly inapposite. (See Doc. 42 at 7–8.) He relies on United States v.
Bunner, in which the criminal defendant pleaded
guilty to a crime pursuant to 18 U.S.C. § 924(c). 134
F.3d 1000, 1002 (10th Cir. 1998). Three years later, the
Supreme Court decided Bailey v. United States, 516

App. 58
U.S. 137 (1995), under which the Bunner “[d]efendant’s
actions no longer constituted a” crime. Id. The Tenth
Circuit found that the very basis of the plea agreement
(the admission of criminal conduct) was frustrated,
and that because the conduct no longer constituted a
crime, no jury could have convicted him. Id. at 1004–
05. Thus, the defendant could not be bound to the plea
agreement. Id. at 1005. But as the Union notes, this
case is more akin to Brady, where the statute was later
shown to be unconstitutional, rather than Bunner,
where the conduct itself no longer constituted a crime.
In cases closer to Brady, the Tenth Circuit has also
found that a plea agreement is not voidable. See, e.g.,
United States v. Porter, 405 F.3d 1136, 1144–45 (10th
Cir. 2005) (ﬁnding that, as in Brady, a plea agreement
was valid after Booker changed the sentencing law).
Ultimately, Mr. Hendrickson fails to point to any
decision that applied Janus to void a union membership contract under similar circumstances. On the contrary, each court that examined this issue has rejected
the claim that Janus entitles union members to resign
and stop paying dues on their own—rather than on the
contract’s—terms. See, e.g., Oliver v. Serv. Emp’s Int’l
Union Local 668, No. CV 19-891, ___ F. Supp. 3d ___,
2019 WL 5964778, at *2 (E.D. Pa. Nov. 12, 2019); Seager
v. United Teachers L.A., No. 219CV00469JLSDFM, 2019
WL 3822001, at *1 (C.D. Cal. Aug. 14, 2019); Smith v.
Bieker, No. 18-cv-05472-VC, 2019 WL 2476679, at *2
(N.D. Cal. June 13, 2019); O’Callaghan v. Regents of the
Univ. of Cal., Case No. CV 19-02289JVS (DFMx), 2019
WL 2635585, at *3 (C.D. Cal. June 10, 2019); Belgau v.

App. 59
Inslee, No. 18-5620 RJB, 2018 WL 4931602, at *5 (W.D.
Wash. Oct. 11, 2018).
It is Mr. Hendrickson’s voluntary choice—on three
separate occasions—to contract with the Union that
defeats his claim. See Adams v. Int’l Bhd. of Boilermakers, 262 F.2d 835, 838 (10th Cir. 1958) (noting that “[i]t
is well settled that the relationship existing between a
trade union and its members is contractual”). As part
of the contract, he knowingly agreed that he could only
revoke his dues deduction authorization during a twoweek opt-out window. He does not allege that he was
coerced, and the parties agree that he was not required
by state law to join. He could have paid a lesser fair
share fee as a nonmember, but instead he chose to join
the Union. See Oliver, 2019 WL 5964778, at *2–3 (ﬁnding “no logic” in the plaintiff ’s position that “if only she
had known of a constitutional right to pay nothing for
services rendered by the Union—despite knowledge of
her right at the time to refuse membership and pay
less—she would have declined union membership completely”). Accordingly, the Court will grant the Union’s
motion for summary judgment on this issue and deny
Mr. Hendrickson’s motion.
3. Mr. Hendrickson cannot show that
the Union is a state actor.
Finally, even if Janus could be construed to compel
a ﬁnding that Mr. Hendrickson had a right to immediately resign his membership and cease paying dues
in contravention of the parties’ contract, he would be

App. 60
unable “to vindicate [his] rights against the Union
through a § 1983 suit because the Union was not acting under ‘color of state law.’ ” See Oliver, 2019 WL
5964778, at *4. “[M]ost rights secured by the Constitution are protected only against infringement by
governments.” MS through Harris v. E. N.M. Mental
Retardation Servs., No. CW 13-628 RBGBW, 2015 WL
13662789, at *2 (D.N.M. June 16, 2015) (quoting Flagg
Bros. v. Brooks, 436 U.S. 149, 156 (1978)). Mr. Hendrickson invokes the First Amendment, which “requires
state action,” thus he must show that the Union’s “actions may ‘be fairly attributed to the State.’ ” How v.
City of Baxter Springs, Kan., 217 F. App’x 787, 791 n.3
(10th Cir. 2007) (quoting Lugar v. Edmondson Oil Co.,
Inc., 457 U.S. 922, 937 (1982)) (citing Hudgens v.
NLRB, 424 U.S. 507, 513 (1976)).
“Whether the conduct may in fact be ‘fairly attributed’ to the state requires a two-part inquiry.” A.M.
ex rel. Youngers v. N.M. Dep’t of Health, 108 F. Supp. 3d
963, 998 (D.N.M. 2015). ‘First, the deprivation must be
caused by the exercise of some right or privilege created by the State or by a rule of conduct imposed by
the state or by a person for whom the State is responsible.’ ” Id. (quoting Lugar, 457 U.S. at 937). “Second,
the party charged with the deprivation must be a person who may fairly be said to be a state actor.” Id.
(quoting Lugar, 457 U.S. at 937) (subsequent citation
omitted).
“Here, the conduct complained of is the collection
of union dues subject to a revocation window period.”
(Doc. 32 at 25 (citing Am. Compl. ¶¶ 53, 55, 58).) Mr.

App. 61
Hendrickson frames the conduct as the “state government using the state payroll system to deduct union
dues from state-issue paychecks of state employees”
pursuant to a state statute. (Doc. 47 at 6; see also Doc.
42 at 14–15.) For purposes of this opinion, the Court
will assume Mr. Hendrickson can satisfy the ﬁrst part
of the inquiry—that the deprivation was caused by the
state’s imposition of a state statutory scheme. Given
that, the Court ﬁnds that he is unable to satisfy the
second part, because the Union cannot be said to be a
state actor.
To determine “whether a private entity can be
considered a state actor, courts must analyze the
claim under four well-defined tests: (1) the nexus
test; (2) the public function test; (3) the joint action
test; and (4) the symbiotic relationship test.” Harris,
2015 WL 13662789, at *3 (citing Wittner v. Banner
Health, 720 F.3d 770, 775 (10th Cir. 2013)). Mr. Hendrickson only argues that the Union is a state actor
pursuant to the joint action test.4 (See Doc. 42 at 15.)
“State action exists under the joint-action test if
the private party is a ‘willful participant in joint action
with the State or its agents.’ ” Youngers, 108 F. Supp.
3d at 1001 (quoting Dennis v. Sparks, 449 U.S. 24, 27
(1980)). “[I]f there is a substantial degree of cooperative action between state and private ofﬁcials . . . or if
4

While Mr. Hendrickson did not argue that the Union is a
state actor under the nexus test, the public function test, or the
symbiotic relationship test, the Court has considered each and
ﬁnds that he fails to provide evidence to establish that the Union
is a state actor under any of these three tests.

App. 62
there is overt and signiﬁcant state participation, in
carrying out the deprivation of the plaintiff ’s constitutional rights, state action is present.” Id. (quoting Gallagher v. Neil Young Freedom Concert, 49 F.3d 1442,
1454 (10th Cir. 1995)). Mr. Hendrickson argues that
there is a substantial degree of cooperation between
the Union and the State because they “sat down together and negotiated the contractual terms by which
they would take members’ dues, and the state carried
out the [U]nion’s instructions. . . .” (Doc. 42 at 15.) This
is similar, he contends, to Janus, “where the Supreme
Court never questioned the matter of state action.”
(Id.)
The Court disagrees. First, the circumstances here
are again distinguishable from Janus because this
lawsuit involves the parties’ voluntary contract, not
the imposition of fair share fees on nonunion employees. In Janus, the nonunion employee did not have a
choice under state law but to pay the fair share fees.
Here, Mr. Hendrickson had a choice to pay union dues
according to the contract that he voluntarily signed.
Second, Mr. Hendrickson fails to show that the
State had a hand in drafting or controlling the terms
of the parties’ membership agreement. He claims that
the CBA between the Union and the State “determine[d] when [he could] end his dues deductions.” (Doc.
47 at 7.) But as the Union points out, it is the membership contract that controls the terms of the opt-out
window; the CBA only “parrots the language of the private membership and dues deduction agreements.”
(Doc. 32 at 26 n.5.) Mr. Hendrickson fails to present

App. 63
any evidence to show that the State had a hand in
drafting the terms of the controlling document—the
membership contract. And even though the State enforced the terms of the opt-out window, the “State’s
mere acquiescence in a private action” does not convert
the “action into that of the State.” Gallagher, 49 F.3d
at 1453 (quoting Flagg Bros., 436 U.S. at 164). There is
no evidence in the record from which a jury could reasonably conclude that the State jointly participated in
creating the terms of the membership agreement.
Ultimately, the Court ﬁnds that Mr. Hendrickson
fails to come forward with evidence necessary to show
that the Union is a state actor. See, e.g., Belgau v.
Inslee, 359 F. Supp. 3d 1000, 1015 (W.D. Wash. 2019)
(ﬁnding that the State’s “obligation to deduct fees in
accordance with the authorization agreements does
not transform decisions about membership requirements [that they pay dues for a year] into state action”)
(quotation marks and citation omitted); Oliver, 2019
WL 5964778, at *6 (because “[t]he union’s right to collect the dues is not created by the Commonwealth [but]
by the union’s contract with its members” and “[t]he
Commonwealth’s role . . . is strictly ministerial, . . . the
Union is not involved in state action by collecting
dues”); Cooley, 385 F. Supp. 3d at 1082 (same).
Even if Mr. Hendrickson could show that the Union was a state actor, his claim for monetary damages
would be foreclosed because the Union, in collecting his
membership dues, relied in good faith on then-existing
law. Every district court, and now two circuit courts,
have found that the union defendants in post-Janus

App. 64
litigation have “a good-faith defense to liability for payments collected before” the Supreme Court’s decision
in Janus. See Janus v. Am. Fed’n of State, Cty., & Mun.
Emps., Council 31; AFL-CIO, 942 F.3d 352, 364 & n.1
(7th Cir. 2019) (collecting cases); Danielson v. Inslee,
945 F.3d 1096, 1098–99 (9th Cir. 2019) (holding that “a
union defendant can invoke an afﬁrmative defense of
good faith to retrospective monetary liability under
section 1983 for the agency fees it collected pre-Janus).
Consequently, the Court will grant summary judgment
to Defendant with respect to the § 1983 claims for
damages and prospective relief.
IV. The Court will grant the Union’s motion
for summary judgment and deny Mr. Hendrickson’s motion for summary judgment
with respect to Count II.
A. Mr. Hendrickson’s claim is foreclosed
by Knight.
Mr. Hendrickson asserts in Count II that the
State’s recognition of the Union as the democratically
elected exclusive representative for his collective bargaining unit violates his First Amendment rights to
free speech and association. (Am. Compl. ¶¶ 63–73.)
Speciﬁcally, he argues that because the Union is the
exclusive representative for his bargaining unit—even
for nonmembers such as himself—he is compelled “to
associate with the Union against his will and . . . “to
petition the government with a viewpoint in opposition
to his own goals and priorities. . . .” (Id. ¶ 71.) He asks

App. 65
that the Court ﬁnd it unconstitutional for the Union to
negotiate with the State “in his name” (Doc. 33 at 23.)
The Union contends that the exclusive representation provisions of the PEBA do not implicate Mr.
Hendrickson’s First Amendment rights. (Doc. 32 at 27–
34.) See also, N.M. Stat. Ann. § 10-7E-13–15. It asserts
that the Supreme Court has already considered and
rejected this claim in Minnesota State Board for Community Colleges v. Knight, 465 U.S. 271 (1984). The
plaintiffs there, community college faculty instructors
who were not members of the union that was the exclusive representative for the faculty’s bargaining unit,
challenged the constitutionality of the state’s exclusive
representation scheme (PELRA). Knight, 465 U.S. at
278. Speciﬁcally, they argued that “meet and confer”
sessions between the union and the employer on employment-related questions violated their First
Amendment rights to speak on their own behalf. See
id. at 274–75, 286. The Supreme Court disagreed and
found that the faculty members had “no special constitutional right to a voice in the making of policy by their
government employer.” Id. at 286.
Mr. Hendrickson stresses that his claim is different, and Knight is inapplicable. He argues that the
Knight case only stands for the proposition that nonunion members have “no constitutional right to force
the government to listen to their views[,]” and that
“he asserts a right against the compelled association
forced on him by exclusive representation.” (Doc. 33 at
20-21.) In other words, he “does not contest the right
of the government to choose whom it meets with, to

App. 66
‘choose its advisors,’ or to amplify the Union’s voice. He
does not demand” that the State listen to his views, as
the Knight faculty sought. (Doc. 33 at 22–23.) Instead,
he asks that the Court ﬁnd it unconstitutional for the
Union to speak on his behalf. (Id. at 23.) This, he argues, “compel[s] him to associate with the Union by
making the Union bargain on his behalf.” (Id. at 22.)
The Court agrees that the issue the Supreme
Court decided in Knight was narrower than the Union
cares to admit. See Thompson v. Marietta Educ. Ass’n,
371 F. Supp. 3d 431, 436 (S.D. Ohio 2019) (noting that
Knight “is not directly dispositive of the claim” the
plaintiff made in Thompson, which was “that the very
designation of the Union as [her] exclusive representative forces an association between [her] and the Union”). In discussing the question presented, however,
the Knight “Court made broad statements about
PELRA and the freedom of association.” Id. The Court
opined that the meet and confer sessions did not infringe on the faculty’s speech or associational rights.
Knight, 465 U.S. at 288. The statutory scheme allowing
for exclusive representation “has in no way restrained
[the faculty’s] . . . freedom to associate or not to associate with whom they please, including the exclusive
representative.” Id. The Court reiterated that their
“associational freedom has not been impaired” because
they “are free to form whatever advocacy groups they
like. They are not required to become members of the
union, and the pressure they may feel to join the union
because of its unique position “does not create an

App. 67
unconstitutional inhibition on associational freedom.”
Id. at 289–90.
Thus, while the ultimate issue the Knight Court
considered does not squarely align with the issue presented here, the Court ﬁnds that language in the decision is directly on point and dispositive of this claim.
“Indeed, every court that has considered [whether an
exclusive representation arrangement] forces [nonunion members] into an expressive association with [unions] has rejected [the argument] as foreclosed by
Knight.” Thompson, 371 F. Supp. 3d at 437 (citing Hill
v. Serv. Emps. Int’l Union, 850 F.3d 861, 863 (7th Cir.
2017) (“rejecting claim that designation of exclusive
representative forced employees into an ‘agency-like
association with the [union] “ and ﬁnding that, “under
Knight, the IPLRA’ s exclusive-bargaining-representative scheme is constitutionally ﬁrm and not subject to
heightened scrutiny”); Jarvis v. Cuomo, 660 F. App’x
72, 74 (2d Cir. 2016) (“ﬁnding the plaintiff ’s claim that
designation of an exclusive representative amounted
to forced association was ‘foreclosed’ by Knight where
the employees were not required to join the union”);
D’Agostino v. Baker, 812 F.3d 240, 244 (1st Cir. 2016)
(“ﬁnding Knight contained the implied premise ‘that
exclusive bargaining representation by a democratically selected union does not, without more, violate
the right of free association on the part of dissenting
non-union members of the bargaining unit”); Reisman v. Associated Faculties of the Univ. of Maine, 356
F. Supp. 3d 173 (D. Maine 2018) (“rejecting the plaintiff ’s

App. 68
compelled association claim as foreclosed by Knight”))
(subsequent citation omitted).
Janus only serves to affirm the conclusion that
exclusive representation schemes are constitutional.
There, the Supreme Court observed:
It is also not disputed that the State may
require that a union serve as exclusive
bargaining agent for its employees—itself a signiﬁcant impingement on associational freedoms that would not be tolerated in
other contexts. We simply draw the line at allowing the government to go further still and
require all employees to support the union irrespective of whether they share its views.
Janus, 138 S. Ct. at 2478 (emphasis added); see also
Mentele v. Inslee, 916 F.3d 783, 786–90 (9th Cir.), cert.
denied 140 S. Ct. 114 (2019) (relying on Janus and
Knight to ﬁnd that an exclusive collective bargaining
representative arrangement does not infringe on nonunion members’ First Amendment rights); Bierman v.
Dayton, 900 F.3d 570, 574 (8th Cir. 2018), cert. denied,
139 S. Ct. 2043 (2019) (ﬁnding that Janus “do[es] not
supersede Knight”).
B. Exclusive representation is justified by
compelling state interests.
Even if the Court found that Knight was not
dispositive of the claim in Count II or that Janus
overruled Knight, the claim would fail because exclusive representation serves compelling state interests.

App. 69
“Mandatory associations are subject to exacting scrutiny, meaning they require a compelling state interest
that cannot be achieved through significantly lessrestrictive means.” Hill v. Serv. Emps. Int’l Union, 850
F.3d 861, 863 (7th Cir. 2017) (citing Knox, 567 U.S. at
310 (noting that “mandatory associations are permissible only when they serve a ‘compelling state interes[t] . . . that cannot be achieved through means
significantly less restrictive of associational freedoms’) (internal quotation omitted)); see also Mentele, 916 F.3d at 790 (same); Harris v. Quinn, 573 U.S.
616, 648–49 (2014) (applying exacting scrutiny to an
agency-fee provision that impinged on associational
freedoms).
Here, the State enacted the PEBA “to guarantee
public employees the right to organize and bargain
collectively with their employers, to promote harmonious and cooperative relationships between public
employers and public employees and to protect the
public interest by ensuring, at all times, the orderly
operation and functioning of the state and its political subdivisions.” N.M. Stat. Ann. § 10-7E-2. The State
Defendants note Janus’s approval of the State’s interest in “labor peace” as a compelling state interest—
that is, “avoidance of the conﬂict and disruption” that
may occur “if the employees in a unit were represented
by more than one union.” See Janus, 138 S. Ct. at 2465
(“[w]e assume that ‘labor peace,’ in this sense of the
term, is a compelling state interest”). (See also Doc. 41
at 11.) Mr. Hendrickson contends that Janus disapproved of labor peace as a compelling state interest,

App. 70
but this is only partially true. (Docs. 33 at 18; 47 at
12; 48 at 8.) Janus found that labor peace was not a
sufficient justification to continue charging agency
fees—it did not conclude that labor peace was an insufficient interest to justify exclusive representation.
138 S. Ct. at 2466; see also Mentele, 916 F.3d at 791
(noting Janus’s “reaffirm[ation] that ‘[s]tates can
keep their labor-relation systems exactly as they
are—only they cannot force nonmembers to subsidize
public-sector unions’) (quoting Janus, 138 S. Ct. at
2485 n.27).
The State Defendants also emphasize the State’s
interest in affordable and efﬁcient management by “allowing a public agency or entity to enter into one contract for an entire bargaining unit, rather than having
to negotiate with multiple competing unions or, perhaps worse, with many individuals.” (Doc. 41 at 17.) In
Mentele, the Ninth Circuit also highlighted this compelling state interest: “[The State] has an interest in
negotiating with only one entity, at least for the sake
of efﬁciency and managerial logistics. . . .” 916 F.3d at
791. Eliminating exclusive representation would create “confusion . . . from multiple agreements[ ] and
possible dissension among the” employees. Id. (citing
Janus, 138 S. Ct. at 2465–66). Mr. Hendrickson contends that the interest in “sav[ing] monetary resources
by negotiating only with the Union . . . is not an interest that can justify First Amendment violations[,]” but
the cases he cites are all inapplicable in this context.5
5

Mr. Hendrickson cites: (1) Romer v. Evans, 517 U.S. 620,
635 (1996), where the Supreme Court found that a purported

App. 71
(Doc. 33 at 19.) The Court ﬁnds that Defendants have
advanced compelling state interests sufﬁcient to justify any purported impingement on Mr. Hendrickson’s
associational freedom.
Moreover, Mr. Hendrickson points to no other
means that are signiﬁcantly less restrictive than the
exclusive representation system now in place. The
Mentele court also stated that it “know[s] of no alternative [to exclusive representation] that is ‘signiﬁcantly less restrictive of associational freedoms.” 916
F.3d at 791 (quoting Janus, 138 S. Ct. at 2465). He does
not want the Union to speak for him, but it is unclear
what signiﬁcantly less restrictive system New Mexico
might implement. Thus, the Court ﬁnds that PEBA’s
exclusive bargaining system is constitutionally permissible and will grant the Union’s motion for summary judgment and deny Mr. Hendrickson’s motion
with respect to Count II.

state “interest in conserving public resources to ﬁght discrimination against other groups” was “so far removed” from the referendum as to be a legitimate objective; and (2) Plyler v. Doe, 457 U.S.
202, 227 (1982), where “an interest in the preservation of the
state’s limited resources for the education of its lawful residents[,]” standing alone, did not justify the State’s “intent[ ] to
discriminate” (quotation marks and citation omitted). Mr. Hendrickson fails to explain how either of these cases is on point.

App. 72
V.

The Court will grant the State Defendants’
motion to dismiss.
A. The Court will dismiss Mr. Hendrickson’s claims in Count I.

Mr. Hendrickson asserts the same claims for prospective relief against the State Defendants in Count
I: (1) that Defendants “cannot force public employees
to wait for an opt-out window to resign their union
membership and to stop the deduction of dues from
their paychecks” (Am. Compl. ¶ 58); (2) that his rights
were violated because he had to pay union dues until
the opt-out window speciﬁed in the parties’ contract
(id. ¶ 59); and (3) that the statute allowing fair share
fees is unconstitutional (id. ¶ 60). (See also Doc. 37 at
9.) His claims fail for the same reasons the Court described above.
First, Mr. Hendrickson does not have standing to
enforce the rights of other public employees. See Aid
for Women, 441 F.3d at 1111; Begay, 710 F. Supp. 2d at
1186–87. Thus, the Court will dismiss the requested
declaration regarding the constitutionality of the optout window as it applies to other public employees. (See
Am. Compl. ¶ 58.)
Second, Mr. Hendrickson is no longer a member of
the Union and has not shown there is a good chance he
will be likewise injured in the future. See Cox, 43 F.3d
at 1348. Moreover, Janus does not apply to void his
membership contract with the Union, and his claim
would also fail on the merits. See 138 S. Ct. at 2486.
Thus, the Court will dismiss the requested declaration

App. 73
regarding the withholding of Union dues until the twoweek opt-out window. (See Am. Compl. ¶ 59.)
Third, the requested declaration regarding N.M.
Stat. Ann. § 10-7E-9(G) is moot, because Mr. Hendrickson does not assert that the Union and SPO are still
deducting fair share fees from nonunion employees.6
Accordingly, the Court will dismiss the requested declaration regarding the fair share fee provision. (See
Am. Compl. ¶ 60.)
B. The Court will dismiss the claim in
Count II.
1. The State Defendants are not responsible for enforcing the PEBA and are
not proper defendants.
With respect to the remaining claim, the State Defendants ﬁrst contend that this Court lacks subject
6

The State Defendants ask the Court to take judicial notice
of a July 6, 2018 letter from the director of the SPO announcing
that it would immediately cease payroll deductions of fair share
fees pursuant to Janus. (See Doc. 37 at 10 (citing Doc. 37-A).)
Mr. Hendrickson does not object to this request or argue that the
SPO has unlawfully deducted fair share fees since Janus. (See
Doc. 43; Am. Compl.) Even if it was improper to take judicial
notice of the proffered letter, the Court notes that the PELRB
Practice Manual also provides that the PEBA provision regarding
fair share fees has been “rendered moot” by Janus. PELRB
Practice Manual at 9, State of N.M. PELRB (Aug. 31, 2019),
https://www.pelrb.state.nm.us/pdf/peba/Practice%20manual%2
Orevd%2011-15-19%20003.pdf. Judicial notice of this record is
proper, because the record “can be accurately and readily determined from sources whose accuracy cannot reasonably be questioned.” See Fed. R. Evid. 201(b)(2).

App. 74
matter jurisdiction because they are not proper defendants for purposes of the Ex parte Young exception
to the Eleventh Amendment. (Doc. 37 at 5.) “Suits
against state ofﬁcials in their ofﬁcial capacity . . .
should be treated as suits against the State.” Hafer v.
Melo, 502 U.S. 21, 25 (1991) (citation omitted)). And
while “[t]he Eleventh Amendment generally bars suits
against a state in federal court commenced by citizens
of that state[,]” the Ex parte Young doctrine permits an
exception where the plaintiff sues “a state ofﬁcial in
federal court [and] seeks only prospective equitable relief for violations of federal law. . . .” J.B. ex rel. Hart v.
Valdez, 186 F.3d 1280, 1285, 1286 (10th Cir. 1999)
(quoting Elephant Butte Irrigation Dist. of N.M. v. Dep’t
of the Interior, 160 F.3d 602, 607–08 (10th Cir.)). To
properly name an ofﬁcial as a defendant, he or she
“must have a particular duty to ‘enforce’ the statute in
question and a demonstrated willingness to exercise
that duty.” Peterson v. Martinez, 707 F.3d 1197, 1205
(10th Cir. 2013) (quoting Prairie Band Potawatomi Nation v. Wagnon, 476 F.3d 818, 828 (10th Cir. 2007)).
The State Defendants argue that neither of them
has enforcement duties over the PEBA, which is instead the responsibility of the Public Employee Labor
Relations Board (PELRB). (Doc. 37 at 7 (citing N.M.
Stat. Ann. §§ 10-7E-23(A), 10-7E-4(D)).) The PELRB
“consists of three members appointed by the governor[,]” N.M. Stat. Ann. § 10-7E-8, and “has the power
to enforce provisions of the [PEBA] through the imposition of appropriate administrative remedies.”
§ 107E-9(F).

App. 75
In Sweeney v. Madigan, another post-Janus case
on collective bargaining, the plaintiffs named the attorney general of Illinois. 359 F. Supp. 3d 585, 592
(N.D. Ill. 2019). The attorney general argued that the
Eleventh Amendment barred the action against her
because she did not have prosecutorial authority over
the statutory scheme. Id. The district court held that
although the Illinois Labor Relations Board enforced
the statutes, the attorney general “is responsible for
prosecuting violations of orders of the board. Id. Thus,
the attorney general was properly named Id. The same
is not true here. The PEBA authorizes the PELRB to
enforce the PEBA, § 10-7E-9(F), and enforcement of
PELRB orders is reserved to the courts, not the Attorney General. See § 10-7E-23. Mr. Hendrickson has not
demonstrated that either the governor or the attorney
general have enforcement powers over the PEBA.
The State Defendants cite to an unpublished
Tenth Circuit case in support of their position. In
Bishop v. Oklahoma, two couples sued the governor
and attorney general and sought a declaration that an
amendment to the state constitution was unconstitutional. 333 F. App’x 361, 362–63 (10th Cir. 2009). The
Tenth Circuit held that the state “ofﬁcials’ generalized
duty to enforce state law, alone, is insufﬁcient to subject them to a suit challenging a constitutional amendment they have no speciﬁc duty to enforce.” Id. at 365
(citations omitted). The Bishop court cited several
cases from other circuits in support of its decision.
First, in Women’s Emergency Network v. Bush, the
Eleventh Circuit held that “[w]here the enforcement of

App. 76
a statute is the responsibility of parties other than the
governor (the cabinet in this case), the governor’s general executive power is insufﬁcient to confer jurisdiction.” 323 F.3d 937, 949–50 (11th Cir. 2003) (citation
omitted). Similarly in Waste Management Holdings,
Inc. v. Gilmore, the Fourth Circuit concluded that “[t]he
mere fact that a governor is under a general duty to
enforce state laws does not make him a proper defendant in every action attacking the constitutionality of a
state statute.” 252 F.3d 316, 331 (4th Cir. 2001) (quoting Shell Oil Co. v. Noel, 608 F.2d 208, 211 (1st Cir.
1979)). In Okpalobi v. Foster, the Fifth Circuit found
that the plaintiff could not maintain a suit against the
governor and attorney general where neither ofﬁcial
had an “enforcement connection with . . . the statute at
issue.” 244 F.3d 405, 422 (5th Cir. 2001) (en banc) (emphasis omitted). In 1st Westco Corp. v. School District
of Philadelphia, the Third Circuit opined that “[i]f we
were to allow [plaintiffs] to join . . . [the State ofﬁcials]
in this lawsuit based on their general obligation to enforce the laws . . . , we would quickly approach the nadir of the slippery slope; each state’s high policy
ofﬁcials would be subject to defend every suit challenging the constitutionality of any state statute, no matter
how attenuated his or her connection to it.” 6 F.3d 108,
112–13, 116 (3d Cir. 1993).
Mr. Hendrickson attempts to distinguish Bishop
on the basis that the enforcement of the statute was
delegated to a branch other than the executive branch.
(Doc. 43 at 6.) But this argument fails in looking at the
cases the Tenth Circuit cited in support of its holding

App. 77
in Bishop: enforcement in Women’s Emergency Network was the responsibility of the cabinet, which is
also part of the executive branch. 323 F.3d at 949–50.
In Waste Management Holdings, the statutory scheme
was enforced by a board, the members of which were
appointed by the governor. See 252 F.3d at 323; Va.
Code Ann. §§ 10.1-1401, 10.1-1455. The Court is not
convinced that enforcement by another branch is the
determining factor.
Mr. Hendrickson urges the Court to follow the
Tenth Circuit’s reasoning in Petrella v. Brownback, 697
F.3d 1285 (10th Cir. 2012), where it found that the attorney general and governor were proper defendants
in a lawsuit “challenging the statutory scheme by
which the state of Kansas fund[ed] its public schools.”
Id. at 1289, 1293–94. The Tenth Circuit rejected the
state ofﬁcials’ argument that they were not proper defendants:
It cannot seriously be disputed that the
proper vehicle for challenging the constitutionality of a state statute, where only prospective, non-monetary relief is sought, is an
action against the state ofﬁcials responsible
for the enforcement of that statute. See Ex
parte Young, 209 U.S. 123, 161 (1908). Nor can
it be disputed that the Governor and Attorney
General of the state of Kansas have responsibility for the enforcement of the laws of the
state. See Kan. Const. Art. I § 3; Kan. Stat.
Ann. § 75-702.

App. 78
Id. But as the State Defendants note, the school funding statute is “encompassed by [the executive branch’s]
general enforcement power. If a local school district
were to violate the [statute at issue in Petrella], it
would be the governor and the attorney general that
would take any enforcement action, as provided by the
Kansas State Constitution.” (Doc. 46 at 3 (citing Petrella, 697 F. Supp. 3d at 1294).) But “enforcement of
New Mexico public employee union contracts is not
encompassed by this general authority.” (Id.) Instead,
enforcement of the PEBA rests with the PELRB. Accordingly, the Court holds that Governor Lujan Grisham and Attorney General Balderas are not proper
defendants in this matter.
2. Mr. Hendrickson has failed to state
a claim in Count II.
Even if the State Defendants were properly
named, the Court would dismiss Count II for failure to
state a claim. As the Court found above, Knight forecloses the claim. And if Knight was not dispositive or if
Janus overruled Knight, the arrangement is justiﬁed
by compelling state interests. Consequently, the Court
will grant the motion to dismiss with respect to Count
II.
THEREFORE,
IT IS ORDERED that Defendant AFSCME
Council 18’s Motion for Summary Judgment, Statement of Undisputed Material Facts, and Memorandum
of Points and Authorities in Support of AFSCME

App. 79
Council 18’s Motion for Summary Judgment (Doc. 32)
is GRANTED;
IT IS FURTHER ORDERED that Plaintiff ’s
Motion for Summary Judgment and Memorandum of
Law in Support Thereof (Doc. 33) is DENIED;
IT IS FURTHER ORDERED that Defendants
Michelle Lujan Grisham and Hector Balderas’s Motion
to Dismiss (Doc. 37) is GRANTED; and
IT IS FURTHER ORDERED that this case is
DISMISSED.
/s/ Robert C. Brack
ROBERT C. BRACK
SENIOR U.S.
DISTRICT JUDGE

App. 80
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
BRETT HENDRICKSON,
Plaintiff,
v.

No. CIV 18-1119 RB/LF

AFSCME COUNCIL 18;
MICHELLE LUJAN
GRISHAM, in her ofﬁcial
capacity as Governor of
New Mexico; and HECTOR
BALDERAS, in his ofﬁcial
capacity as Attorney
General of New Mexico,
Defendants.
FINAL ORDER
(Filed Jan. 22, 2020)
Having granted Defendant AFSCME Council 18’s
Motion for Summary Judgment (Doc. 32) and Defendants Michelle Lujan Grisham and Hector Balderas’s
Motion to Dismiss (Doc. 37), and denied Plaintiff ’s Motion for Summary Judgment (Doc. 33) by Memorandum Opinion and Order entered contemporaneously
with this Final Order,

App. 81
IT IS ORDERED that Plaintiff ’s lawsuit is DISMISSED with prejudice.
/s/ Robert C. Brack
ROBERT C. BRACK
SENIOR U.S.
DISTRICT JUDGE

